<html>
<title> - GEOSPATIAL INFORMATION: A PROGRESS REPORT ON IMPROVING OUR NATION'S MAP-RELATED DATA INFRASTRUCTURE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
  GEOSPATIAL INFORMATION: A PROGRESS REPORT ON IMPROVING OUR NATION'S 
                    MAP-RELATED DATA INFRASTRUCTURE

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 10, 2003

                               __________

                           Serial No. 108-99

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 _____

                   U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2004
91-647 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 DIANE E. WATSON, California
TIM MURPHY, Pennsylvania             STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
                 Scott Klein, Professional Staff Member
                      Ursula Wojciechowski, Clerk
           David McMillen, Minority Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 10, 2003....................................     1
Statement of:
    Forman, Mark A., Administrator of E-Government and 
      Information Technology, Office of Management and Budget; 
      Scott J. Cameron, Deputy Assistant Secretary, Performance 
      and Management, Department of Interior, and chairman, 
      geospatial one-stop Board of Directors; and Linda D. 
      Koontz, Director, Information Management, U.S. General 
      Accounting Office..........................................     5
    Kalweit, Susan W., Chairman, Interagency Geospatial 
      Preparedness Team, FEMA (DHS), former Deputy Chief, NIMA 
      North America and Homeland Security Division; Gene Trobia, 
      president, National States Geographic Information Council; 
      Jack Dangermond, president and founder, ESRI, Inc.; and 
      Michael Ritchie, P.E., L.S., C.P., president, Management 
      Association for Private Photogrammetric Surveyors..........    67
Letters, statements, etc., submitted for the record by:
    Cameron, Scott J., Deputy Assistant Secretary, Performance 
      and Management, Department of Interior, and chairman, 
      geospatial one-stop Board of Directors, prepared statement 
      of.........................................................    16
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    60
    Dangermond, Jack, president and founder, ESRI, Inc., prepared 
      statement of...............................................   101
    Forman, Mark A., Administrator of E-Government and 
      Information Technology, Office of Management and Budget, 
      prepared statement of......................................     8
    Kalweit, Susan W., Chairman, Interagency Geospatial 
      Preparedness Team, FEMA (DHS), former Deputy Chief, NIMA 
      North America and Homeland Security Division, prepared 
      statement of...............................................    70
    Koontz, Linda D., Director, Information Management, U.S. 
      General Accounting Office, prepared statement of...........    28
    Miller, Hon. Candice S., a Representative in Congress from 
      the State of Michigan, prepared statement of...............    47
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     3
    Ritchie, Michael, P.E., L.S., C.P., president, Management 
      Association for Private Photogrammetric Surveyors, prepared 
      statement of...............................................   106
    Trobia, Gene, president, National States Geographic 
      Information Council, prepared statement of.................    82


  GEOSPATIAL INFORMATION: A PROGRESS REPORT ON IMPROVING OUR NATION'S 
                    MAP-RELATED DATA INFRASTRUCTURE

                              ----------                              


                         TUESDAY, JUNE 10, 2003

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Adam Putnam 
(chairman of the subcommittee) presiding.
    Present: Representatives Putnam, Miller, Clay, and Watson.
    Staff present: Bob Dix, staff director; John Hambel, senior 
counsel; Scott Klein, Chip Walker, Lori Martin, and Casey 
Welch, professional staff members; Ursula Wojciechowski, clerk; 
Suzanne Lightman, fellow; Bill Vigen, intern; David McMillen, 
minority professional staff member; and Jean Gosa, minority 
assistant clerk.
    Mr. Putnam. This hearing of the Subcommittee on Technology, 
Information Policy, Intergovernmental Relations and the Census 
will come to order.
    Good morning and welcome to today's hearing on geospatial 
systems and improving our Nation's map-related data 
infrastructure.
    As many of our witnesses today will likely convey, getting 
our arms around the array of geospatial systems issues and the 
technical minutiae surrounding geospatial data and geospatial 
technology is a monumental task. Geospatial not only provides 
the same challenges we have discussed in past IT information-
sharing hearings, but it takes those challenges one step 
further in terms of adding a mapping component, location 
issues, data standards and intergovernmental interoperability 
issues. In other words, one-dimensional IT becomes three-
dimensional geospatially.
    Some of our witnesses and many in our audience here today 
have spent their entire careers working on geospatial issues, 
and yet emerging technology has created as many new geospatial 
management challenges as it has provided benefits and 
opportunities. But before we try to go too far down the path on 
technical details, it's important for the subcommittee to hold 
this hearing to get an overview and understanding of the 
geospatial issue and the role that key stakeholders play in 
meeting our long-term geospatial goals.
    Today, we will examine the progress being made by the 
Federal Government to consolidate and improve utilization of 
the masses of data being collected by departments and agencies 
across the Federal Government and by State and local 
governments. We need to understand what programs exist across 
the government, how much we're spending on those programs, 
where we're spending that money, how efficiently, or perhaps 
inefficiently, we share data across traditional Federal agency 
boundaries, how we separate security-sensitive geospatial data 
from those open for public use, and how we efficiently, or 
perhaps inefficiently, coordinate with State and local 
governments and tribes.
    We also need to evaluate the important role that the 
private sector plays to meet some of these difficult management 
and technological challenges. The first and most critical 
challenge involves data standards and interoperability. In most 
cases, information is collected in different formats and 
standards for one specific mission with little attention to 
subsequent intergovernmental data sharing. This is true across 
the Federal Government, as well as in States and localities 
across this Nation.
    This results in wasteful redundancies and a reduced ability 
to perform critical intergovernmental functions. Within an 
atmosphere of an infinite amount of collectible data and tens 
of thousands of entities securing and utilizing data for 
individual goals and missions, not to mention emerging new uses 
of geospatial data, the development and use of common data 
standards and an organizational or management structure to 
coordinate these investments is more essential than ever toward 
reducing redundant expenditures, providing the most up-to-date 
information, and improving the utilization and variability of 
accurate data for public and private use.
    As simple as it sounds, it is critical that we are all 
singing from the same sheet of music. Geospatial systems and 
our geospatial infrastructure worldwide cannot operate without 
resolving this standards issue, and it is my initial feeling 
that developing a unified game plan is generally not technology 
driven but rather management or personnel driven.
    I'm especially pleased that we'll have an opportunity today 
to discuss progress being made on the Geospatial Information 
One-Stop Initiative, one of the President's key e-government 
reforms intended to simplify the process of locating, 
accessing, sharing and integrating geospatial information in a 
timely and efficient manner.
    I'm equally interested, however, in the end result. It is 
important that taxpayers and those of us involved in deciding 
how to spend their hard-earned money understand the return on 
the investments being made, how we are using geospatial 
information to solve everyday problems, how we plan to better 
utilize that data, and how we plan to coordinate and share data 
across all levels of government to improve the quality of life 
for all citizens.
    [The prepared statement of Hon. Adam H. Putnam follows:]
    [GRAPHIC] [TIFF OMITTED] T1647.001
    
    [GRAPHIC] [TIFF OMITTED] T1647.002
    
    Mr. Putnam. Hopefully we'll be joined later by additional 
members of the subcommittee, and we will insert their remarks 
at the appropriate place, but at this time we will move to the 
witnesses. Each has prepared written testimony which will be 
included in the record, and we ask that each of you summarize 
your thoughts and do a 5-minute presentation. That will allow 
us ample time for questions and dialog, although judging by the 
attendance, we will have no shortage of time for questions and 
dialog.
    Witnesses will notice the time with the light on at the 
witness table. The green light is for you to begin your 
remarks; and red, we'll ask you to sum up rather quickly, 
because your time has expired. In order to be sensitive to 
everyone's schedule, we ask that you cooperate with adhering to 
our time schedule. We also, as is the policy of the Government 
Reform Committee, swear in witnesses, so if you would please 
rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that the witnesses 
responded in the affirmative.
    I'll also note for the record we are being Web cast on 
reform.house.gov.
    I'd like to introduce our first witness, Mark Forman, who 
is a frequent guest of this committee, and we're always 
grateful for his insight. He has been appointed by President 
Bush to be the Administrator for the Office of E-Government and 
Information Technology. He is effectively our Nation's Chief 
Information Officer charged with managing more than $58 billion 
in Federal IT investments and is the chief architect of the 
President's e-government initiative.
    Mr. Forman also oversees executive branch CIOs and directs 
the Federal activities of the CIO council.
    Mr. Forman, you are recognized. Welcome to this 
subcommittee.

STATEMENTS OF MARK A. FORMAN, ADMINISTRATOR OF E-GOVERNMENT AND 
INFORMATION TECHNOLOGY, OFFICE OF MANAGEMENT AND BUDGET; SCOTT 
    J. CAMERON, DEPUTY ASSISTANT SECRETARY, PERFORMANCE AND 
 MANAGEMENT, DEPARTMENT OF INTERIOR, AND CHAIRMAN, GEOSPATIAL 
  ONE-STOP BOARD OF DIRECTORS; AND LINDA D. KOONTZ, DIRECTOR, 
     INFORMATION MANAGEMENT, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Forman. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before this subcommittee to discuss 
efforts by the Federal Government to consolidate and improve 
utilization of geospatial information. I also want to take this 
opportunity to thank Tony Freighter of my staff, who has done 
outstanding work, really leading, as the focal point, to 
improve the relations between State and local governments and 
the Federal Government in so many critical areas of applying e-
government and information technology.
    Geospatial data is critical to the business of government, 
and I think it's important that we take this opportunity to 
inform you of the administration's efforts. Delivering better 
results for the citizens is at the heart of the e-government 
vision.
    As I've previously testified before this committee, this 
effort is designed to make better use of information technology 
investments to eliminate billions of dollars of wasteful 
Federal spending, reduce government's paperwork burden on 
citizens and businesses and improve government responsiveness 
to citizens.
    During the early stages of developing our e-government 
strategy, we set up focus groups with State and local 
officials. Repeatedly, State and local representatives told us 
that geospatial information supported their most critical 
functions. However, we were told that finding and obtaining 
Federal geospatial information was overly burdensome. State and 
local GIS users could spend months doing Internet searches at 
Federal Web sites, making phone calls, writing letters to 
Federal agencies in search of essential data that was 
necessary, often to deliver a Federal service or comply with a 
Federal regulation.
    Our discussion has led to the selection of the geospatial 
one-stop as one of the 24 Presidential e-government 
initiatives. Because of its importance to State and local 
governments, the geospatial one-stop is one of five G2G, or 
government-to-government initiatives, and it is the focal point 
for Federal Government geospatial consolidation efforts.
    Indeed, nearly every government agency uses geospatial 
tools in some capacity. However, not every agency needs to buy 
its own data and build its own systems. In fact, strategic 
coordination and Internet technologies enable organizations to 
share investments across agencies, even across levels of 
government.
    The redundancies that we found trigger multiple problems 
and also opportunities.
    Clearly, from a resource perspective, we cannot afford to 
buy the same data set over and over again. We have significant 
opportunities to buy data once and use it many times instead of 
buying the same data other and over, as you mentioned.
    Second, redundant data sets in geospatial tools also result 
in confusion and excess spending by our partners. State and 
local governments do not have time or resources needed to 
integrate the data sets and serve multiple geospatial surveys 
and follow the various geospatial-related programs. By 
consolidating around the geospatial one-stop, we have an 
opportunity to fuse data from multiple organizations and 
streamline the various geospatial programs.
    Third, overlapping and disparate geospatial data assets 
restrict multiagency or multijurisdiction collaboration, which 
is critical for homeland security.
    Obviously, efforts to coordinate and rationalize assets 
across an organization will require significant coordination, 
planning and leadership. Our governance model and a set of 
guiding principles is described in the recently revised OMB 
Circular A-16. This circular describes the effective and 
economical use in management of geospatial data assets in a 
digital environment for the benefit of government and a nation.
    In addition, OMB and the CIO Council will use the Federal 
Enterprise Architecture to implement and enforce these 
principles. The strategic management of geospatial assets will 
be accomplished through a robust and mature enterprise 
architecture. As you'll recall when we discussed this before, 
an enterprise architecture describes how an organization's 
business processes, its data, its technology and its 
organization work together.
    OMB is nearly completed work on the first versions of the 
Data and Information Reference Model. The DRM will provide a 
consistent framework to characterize and describe the data that 
support Federal business lines. This will promote 
interoperability as well as horizontal and vertical sharing of 
information. Geospatial information has been targeted as one of 
the first data sets to be modeled.
    I know that Mr. Cameron will go into much greater detail 
about the geospatial one-stop. I wanted to provide you with the 
framework we're using to manage and coordinate assets across 
the Federal enterprise. Finally, I would like to leave with you 
some of the performance targets that we will hit this year as a 
result of these efforts.
    First, launching the geospatial one-stop portal with an 
initial 1,000 data sets and increase the amount of information 
on that portal by 20 percent each month thereafter.
    Second, having 10 Federal partners who will provide 
resources to help run the portal.
    Third, develop 10 geospatial data cost-sharing partnerships 
between Federal, State or local governments. Fourth, 
disseminate 5,000 data sets via the geospatial one-stop during 
the first quarter of operation and increase data sharing by 10 
percent per month thereafter.
    And, fifth, develop and deploy standards for 12 critical 
geospatial data layers.
    Thank you.
    Mr. Putnam. Thank you, Mr. Forman. We look forward to the 
opportunity to delve a little deeper into your testimony, but 
we'll continue with the other witnesses.
    [The prepared statement of Mr. Forman follows:]
    [GRAPHIC] [TIFF OMITTED] T1647.003
    
    [GRAPHIC] [TIFF OMITTED] T1647.004
    
    [GRAPHIC] [TIFF OMITTED] T1647.005
    
    [GRAPHIC] [TIFF OMITTED] T1647.006
    
    [GRAPHIC] [TIFF OMITTED] T1647.007
    
    Mr. Putnam. We'll call on Mr. Cameron next. Scott Cameron 
is Deputy Assistant Secretary for Performance and Management 
for the Department of Interior. Given Interior's extensive use 
of mapping and intrinsic staff talent, Mr. Cameron took on the 
important role as chairman of the President's Geospatial One-
Stop E-Gov Initiative.
    He previously served in California's Washington office, 
advising Governor Wilson on Federal environmental energy and 
natural resource issues. He also served under President George 
H.W. Bush as Deputy Chief of Interior Branch Issues at OMB.
    Welcome to the subcommittee. You are recognized.
    Mr. Cameron. Thank you, Mr. Chairman. I'm very grateful for 
this opportunity to talk to you about some of the innovations 
that are going on in the geospatial world these days. Since you 
have my written testimony, I'm frankly not going to repeat much 
of that information. There are a few new pieces of information 
I'd like to share with the subcommittee this morning, so I'm 
going to try to hit half a dozen high points.
    First of all, fundamentally what is the geospatial one-stop 
project all about? It's fundamentally about making it faster, 
cheaper and easier for all levels of the government and 
eventually the private sector to get access to the source of 
geospatial information they need to solve real-world problems 
on the ground, whether it's siting an industrial facility or 
land use planning or homeland security.
    One of the specific tasks of the geospatial one-stop 
project, as has already been mentioned, is working on data 
standards for 11 thematic data layers, such as transportation, 
hydrography, elevation, geodata control and so on.
    By getting the community around common data standards, we 
can ensure that data is collected to common standards, and 
therefore its interoperability or the opportunities for sharing 
it among a wide variety of partners would be much higher than 
if data were not collected to standards.
    The second major element of the project is essentially 
putting together an electronic card catalog of who owns what 
data, what standards it was collected to, to what resolution, 
how old it is, so that one could go to the geospatial one-stop 
portal the same way one would go to a card catalog in a 
library, an electronic card catalog these days, and find out 
what the holdings are of the library, find out what level of 
government, Federal, State or local, owns what data and whether 
or not it would suit your purposes.
    The third element of the project is what we call the 
geospatial marketplace. The notion here is that initially all 
Federal agencies and, by extension, eventually State and local 
government agencies as well would post information on the data 
they were planning to buy in the following fiscal year all in 
one location, so that everybody in the community across all 
levels of government, and indeed the private sector, would know 
what level of government was planning on buying what sort of 
data in what sort of location.
    This is an opportunity to eliminate redundancy. This is an 
opportunity to create partnerships. This is an opportunity to 
collect data once and use it many times.
    The fourth element of the project is actually creating a 
portal, having an online computer capability to actually get at 
the underlying data and to be able to pull data from various 
sources, whether it's a data base that is owned by Polk County, 
FL, or the city of St. Louis or the U.S. Geological Survey or 
the State of Florida.
    How are we organized to do this? We've taken a rather novel 
approach, frankly, Mr. Chairman. Approximately two-thirds of 
the government spending on geospatial data across the country 
is by State and local governments. They own around two-thirds 
of the data that's out there that would eventually end up on 
this card catalog, if you will, that I described earlier. And, 
frankly, the data that the local governments and the State 
governments own is more current, higher resolution, by most 
measures better than the Federal data.
    So it was very obvious to us, as Mark alluded to earlier, 
that this project, as part of the government-to-government 
portfolio under the President's management agenda, really truly 
needed to engage State governments and local governments in 
meaningful fashion. We decided to do that by setting up 
essentially an intergovernmental board of directors for the 
geospatial one-stop project involving a wide variety of players 
from the State and local community, Western Governors 
Association, National Association of Counties, and so on.
    So this project is truly being directed by the entire 
geospatial community, Federal, State and local governments all 
working together, all working in concert.
    I'm happy to announce this morning, Mr. Chairman, that we 
have in fact taken the first major step toward realizing the 
fourth task, the portal task that I alluded to. Last week, the 
geospatial one-stop board of directors in fact selected a 
prototype, a version 1.0 for the geospatial one-stop portal 
that we'll be using for the next year or so. Frankly, we are 
pushing very hard to get this done quickly. I imagine there 
will be a separate procurement in about a year under a somewhat 
more luxurious pace than what we had until now.
    The fifth item involves the private sector, and from a 
substantive standpoint, if we're thinking in terms of the 
citizen, one really has to wonder if it's not appropriate, in 
fact a really good idea, to make private-sector data accessible 
through the geospatial one-stop portal. If you are a farmer in 
Polk County, FL, and you're interested in elevation data 
because you're thinking of irrigating and you want to know 
where the water would flow if you brought it into your farm, 
you might have U.S. Geological Survey data that is 10 years 
old. You might have State of Florida data that is 5 years old. 
You might have Polk County data that is only a year old, but 
the resolution is only to the nearest 2 feet.
    Well, if there's someone out there in the private sector 
who can tell you, I collected this data last week and I've got 
resolution to 1 foot, don't we owe it to that person to make 
that knowledge available to them so they can make their own 
decision about whether to use private or public data?
    Now, speaking purely on my own in this regard, Mr. 
Chairman, and we'll be bringing this issue in front of the 
geospatial board over
the next several months, but I think if we're citizen-centric, 
the role of the private sector is something I'll have to 
consider, and I apologize for running over.
    Mr. Putnam. None of the other members of the subcommittee 
object.
    [The prepared statement of Mr. Cameron follows:]
    [GRAPHIC] [TIFF OMITTED] T1647.008
    
    [GRAPHIC] [TIFF OMITTED] T1647.009
    
    [GRAPHIC] [TIFF OMITTED] T1647.010
    
    [GRAPHIC] [TIFF OMITTED] T1647.011
    
    [GRAPHIC] [TIFF OMITTED] T1647.012
    
    [GRAPHIC] [TIFF OMITTED] T1647.013
    
    [GRAPHIC] [TIFF OMITTED] T1647.014
    
    [GRAPHIC] [TIFF OMITTED] T1647.015
    
    [GRAPHIC] [TIFF OMITTED] T1647.016
    
    [GRAPHIC] [TIFF OMITTED] T1647.017
    
    Mr. Putnam. Oh, welcome to the subcommittee, Mrs. Miller. I 
apologize. Do you object?
    Mrs. Miller. Not a bit.
    Mr. Putnam. We'll recognize the third witness, and then 
we'll go back to Mrs. Miller if she'd like to make an opening 
statement.
    Our next witness is Ms. Koontz, who is from the GAO, and 
she is Director of Information Management issues at the GAO. 
She's responsible for issues concerning the collection, use and 
dissemination of government information in an era of rapidly 
changing technology, as well as a proliferation of e-gov 
issues.
    Recently, she's been heavily involved in directing studies 
concerning e-government privacy, electronic records management 
and governmentwide information dissemination. In addition, she 
and her team have been preparing to support congressional 
oversight of the Paperwork Reduction Act and the 
reauthorization of OMB's Office of Information and Regulatory 
Affairs. She has a BA in accounting from Michigan State 
University.
    Welcome.
    Ms. Koontz. Thank you, Mr. Chairman. I appreciate the 
opportunity to participate in the subcommittee's hearing on the 
challenges of developing an integrated nationwide network of 
geographic information systems.
    In my written statement, we discuss the many overlapping 
GIS activities under way in the Federal Government, the Federal 
Government's efforts since 1953 to coordinate these activities 
and the long-standing challenges of adopting and implementing 
GIS standards. In addition, we discuss the role of geospatial 
one-stop, one of 25 high-profile e-government initiatives 
sponsored by OMB. It is these latter two subjects that I'd like 
to focus on.
    Developing common geospatial standards to support vital 
public services, while extremely important, has proven to be a 
complex and time-consuming effort. The number of types of 
geospatial data and the complexity of those data make 
developing standards a daunting task.
    For example, 34 different broad categories of geospatial 
data, called ``data themes,'' have been identified. These 
themes relate to all types of services provided by the Federal 
Government, including climate, flood hazards, Federal land 
ownership, public health and transportation.
    The FGDC has been working to coordinate the development of 
some of these themes and related standards since it was 
established 13 years ago. Although a complete set has yet to be 
assembled, we understand that the geospatial one-stop officials 
have drafted versions of seven framework standards and an 
eighth base standard and plan to submit them for approval in 
September 2003. These framework standards define the simplest 
level of geographic data commonly used in geospatial data sets.
    Once standards are agreed upon, the government still faces 
the challenge of gaining wide adoption of the standards. At the 
Federal level alone, this may prove to be difficult. Agencies 
may be unwilling to adopt framework data standards. Most 
Federal agencies including Energy, Justice and Health and Human 
Services have not been involved in the standards process, and 
as a result, these standards may not meet their needs.
    In addition, agencies have already made substantial 
investments to independently develop systems using formatting 
standards to meet their own needs. Migrating to a new standard 
could be a potentially expensive effort. A similar challenge 
exists at State and local levels where existing commercial 
products are already meeting their needs.
    In regard to geospatial one-stop, this initiative's plans 
to develop a portal, finalize the seven framework standards, 
create an inventory of Federal data holdings and provide 
greater coordination among all levels of government represent 
important near-term tasks. However, the geospatial one-stop 
initiative is not intended to address the longer-term 
challenges associated with developing and deploying standards. 
For example, while developing and implementing an Internet 
portal may offer additional functionality over existing 
mechanisms, unless the underlying geospatial data is 
standardized, this improved functionality is limited.
    In summary, a coordinated nationwide network of geographic 
information systems offers many opportunities to better serve 
the public, make government more efficient and effective and 
reduce duplication and costs. While steps, including the 
ongoing geospatial one-stop, have been taken to improve the 
coordination of government GIS efforts, much more work remains 
to be done to round out a comprehensive set of standards and 
ensure they are broadly adopted.
    Existing draft standards may need revision to accommodate 
the needs of Federal users and more extensive coordination may 
be needed to ensure broad adoption. Further, this will require 
a continuing effort over time due to the fact that significant 
investments have already been made in nonstandard systems and 
the task of replacing those systems and migrating their data 
cannot be accomplished overnight.
    We believe until these challenges are addressed, a goal of 
a single, coordinated, nationwide system will remain out of 
reach.
    [The prepared statement of Ms. Koontz follows:]
    [GRAPHIC] [TIFF OMITTED] T1647.018
    
    [GRAPHIC] [TIFF OMITTED] T1647.019
    
    [GRAPHIC] [TIFF OMITTED] T1647.020
    
    [GRAPHIC] [TIFF OMITTED] T1647.021
    
    [GRAPHIC] [TIFF OMITTED] T1647.022
    
    [GRAPHIC] [TIFF OMITTED] T1647.023
    
    [GRAPHIC] [TIFF OMITTED] T1647.024
    
    [GRAPHIC] [TIFF OMITTED] T1647.025
    
    [GRAPHIC] [TIFF OMITTED] T1647.026
    
    [GRAPHIC] [TIFF OMITTED] T1647.027
    
    [GRAPHIC] [TIFF OMITTED] T1647.028
    
    [GRAPHIC] [TIFF OMITTED] T1647.029
    
    [GRAPHIC] [TIFF OMITTED] T1647.030
    
    [GRAPHIC] [TIFF OMITTED] T1647.031
    
    [GRAPHIC] [TIFF OMITTED] T1647.032
    
    [GRAPHIC] [TIFF OMITTED] T1647.033
    
    [GRAPHIC] [TIFF OMITTED] T1647.034
    
    [GRAPHIC] [TIFF OMITTED] T1647.035
    
    Mr. Putnam. Thank you very much.
    I'll now recognize the vice chairman of the subcommittee, 
the gentlelady from Michigan, for an opening statement if she 
has one.
    Mrs. Miller. Thank you, Mr. Chairman. I'll be brief here. 
I'm sorry I was a little bit late getting here this morning.
    This issue of geospatial information could not be more 
appropriate, I don't think, for this subcommittee. Since the 
passage of the E-Government Act of 2002 and the creation of the 
Geospatial One-Stop Initiative, a new-found effort has been 
developed by the Federal agencies here to coordinate with State 
and with local, as well as private industry, to develop an 
effective Federal policy and to increase the effectiveness of 
government services. This subcommittee has jurisdiction, of 
course, over geospatial information policy and has a great 
opportunity, we all think, to ensure improved effectiveness and 
efficiency of this developing technology.
    Geospatial information is utilized by all government 
entities--Federal, State, local--to effectively target 
resources, from the best placement for a senior health center 
to a rural district where the most effective allocation of 
funds for Federal programs targeting inner city youth, the 
amount of information available is abundant. However, Federal, 
State and local governments and private industry find 
themselves engaging in redundant tasks if information were 
better shared. The Department of the Interior, the Federal 
Emergency Management Agency, State governments and local farm 
groups should have access to the same public information to 
better allocate their resources.
    In geospatial information many of the issues, such as 
concerns over privacy associated with information sharing, are 
avoided. A system simply needs to be developed so that accurate 
information is available to all interested parties working 
toward the public good.
    Mr. Chairman, I want to thank you for holding this hearing 
today so that members of this subcommittee and the public as 
well can gain an understanding of actually what geospatial 
information involves and how it impacts their life.
    I'm certainly sorry I missed Mr. Forman's testimony, but 
interested to hear the testimony of the other witnesses here 
today. I thank you all for coming. It's a fascinating subject.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Candice S. Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T1647.036
    
    Mr. Putnam. Thank you, Mrs. Miller.
    I will begin with a few questions. I'll begin with Mr. 
Forman. How much does the Federal Government spend each year on 
the collection and dissemination and use of geospatial data?
    Mr. Forman. Despite the importance of this data and as an 
asset for the management of the government, we do not have an 
accurate accounting. I can tell you that it's in the billions 
of dollars.
    We have done a number of administrative approaches to 
collect that information. So we have insights into the largest 
IT investments. We have taken additional steps to gather data 
on the data acquisition, which in some agencies is not 
considered an IT investment because it's simply buying data.
    We need to do more, and we need to be a little bit more 
rigorous in enforcing, which we intend to do as part of this 
next budget process.
    Mr. Putnam. Is it fair to say that every agency has a 
geospatial component, or most every agency?
    Mr. Forman. I would say that it would be accurate to say 
every agency buys the geospatial assets, the information or the 
tools or a combination thereof. As Congresswoman Miller pointed 
out, government at its core has to manage around geography, and 
so it is implicit or explicit in the management of so many 
programs that every agency has it.
    Mr. Putnam. In order for us to find out how much we 
actually spend, what reporting systems are in place to track 
geospatial spending? And as it relates to the A-16 circular 
that you referred to in your testimony, the agencies are 
supposed to submit that on their collection activities. Could 
you discuss how that information is used to manage the 
geospatial issues at the Federal level?
    Mr. Forman. There are three ways that we're collecting that 
information, some of which are fairly new. First, through OMB 
Circular A-11, as well as A-16, the agencies have to report, 
and that has to come in with their budget justification 
materials. So to the extent that agencies recognize that is 
actually being asked of them, that we get that data in for an 
IT investment with the business case, for program funding with 
the program justification, that's the primary.
    In addition, the Federal Geographic Data Committee compiles 
an annual report that goes agency by agency and details the 
data activities. Again, that tends to use, I think, primarily 
the A-16 data.
    And the third, as part of this year's fiscal 2005 budget, 
we'll be getting reporting on the Federal Enterprise 
Architecture components, as well, with the agencies; and 
geospatial data and the tools are part of some of the reference 
models.
    So we hope to have it in those three forms--the OMB 
Circular A-11, the A-16 with the FGDC reporting, and then the 
Federal Enterprise Architecture reporting as part of the 
budget.
    Mr. Putnam. So assuming that every agency complies with the 
requirements of A-11 and A-16 and their EA report, we should 
know by?
    Mr. Forman. September.
    Mr. Putnam. By September we'll know how much we're spending 
on geospatial?
    Mr. Forman. I think it's fair to say we wouldn't need it in 
all three of those, that clearly what's happening here is, A-16 
didn't work. So we supplemented that with A-11, and our check 
and balance is now this year.
    We know if an agency is performing a mission or manages 
their program as it relates to geography, they have to be using 
some sort of geospatial or geographic information system; the 
check and balance for us is going to come down to the 
architecture. If they're not reporting yet, we see, that 
linkage in the data reference model or in the business 
reference model, we now have a basis to go back to them and 
say, obviously you forgot to give us some information, or you 
probably have a need here that we don't see being met. And I 
believe absent that architecture, we would have a difficult 
time identifying the gaps.
    So I'm putting a lot of my bet this year on the fact that 
we'll have the discipline of the architecture process to ferret 
out people who haven't seen a need to report that before.
    Mr. Putnam. We'll certainly be happy to help enforce some 
of the discipline to ensure that everyone is complying with 
your circulars.
    In your testimony, you mentioned that in the next year you 
will launch the geospatial one-stop portal with an initial 
1,000 data sets with a goal of increasing the amount of 
information on the portal by 20 percent each month thereafter. 
How are the initial 1,000 data sets selected? And could you 
give us some examples of what the public can see when you roll 
out your portal?
    Mr. Forman. For that question, I'd like to defer to Scott 
as being the executive----
    Mr. Putnam. Certainly.
    Mr. Forman [continuing]. Director.
    Mr. Putnam. Mr. Cameron.
    Mr. Cameron. OK. Mr. Chairman. This gives me a wonderful 
opportunity to introduce the executive director of the One-Stop 
project, my direct report--an individual who ran the New Jersey 
State GIS office, Hank Garie.
    And, Hank, I'm going to allow--encourage you to come up 
here and field the question, because you're closer to the data 
here than I am.
    Mr. Putnam. Does the buck stop with you?
    Mr. Garie. The buck stops right here, Mr. Chairman, and 
I'll be happy to try to answer the question for you.
    I think there are two aspects of your question. No. 1 was 
which agencies are we working with on the initial deployment of 
the portal.
    We have been coordinating with a number of Federal 
agencies, including the U.S. Geological Survey, as well as 
NASA, EPA and others, and also working with, initially, a 
handful of States who we've had good contacts with to initially 
populate the portal with geospatial information.
    Data sets that we're focusing on include items of national 
significance such as topography and elevation, basic reference 
information, as well as improving the capability to reach out 
across multiple data platforms to pull information in to 
support decisionmaking, decisionmaking such as homeland 
security, environmental management, transportation planning, 
those types of things.
    Mr. Putnam. Could you walk us through a scenario where a 
regional planner in New Jersey or in central Florida would be 
seeking a particular type of information and someone would 
refer them to this portal? And could you walk us through how 
this would improve their ability to make decisions?
    Mr. Garie. I'd be happy to take a shot at that.
    Let's envision an incident was reported in Florida, a 
hazardous spill, for instance. One would go to the portal and 
be able to instantly, with one click of a mouse, bring up the 
national map, which is a digital set of coverages for the 
entire Nation that would help you zoom into Florida and get a 
sense of that general community. One then could type in an 
address and go directly to the area of the incident, perhaps go 
to the State of Florida and bring up information about 
emergency preparedness information that would be hosted data in 
State government.
    And, finally, if one were interested in the effect that 
spill might have on natural resources, let's say a fishing 
area, one could visit another server, one that I'm aware of 
from the Marine Institute down in Florida and pull up a third 
server, overlaying all that data instantly on the fly and then 
be able to either save and print that as a map or e-mail the 
information to the first responders or to the Governor's office 
in the State of Florida.
    So within a matter of minutes, we could pull information 
together through the portal, get that information consistently 
and quickly into the hands of relevant decisionmakers to try 
and support that response effort.
    Mr. Putnam. To what degree would you be able to access 
private data on that portal?
    Mr. Garie. To the degree that the policy decision is made 
that we would encourage the private sector to report their 
existing information, we could access that information as well. 
It's really not a technical issue. It's a policy issue.
    Mr. Cameron. That's perhaps my cue.
    Mr. Putnam. You need to come to the microphone.
    Sir, you can stay at the table. We'll probably have some 
more questions for you.
    Mr. Cameron. As currently designed, Mr. Chairman, we're 
focusing initially on data sets that are owned by Federal 
agencies, State agencies and local government agencies. From a 
technical standpoint, there's no reason we couldn't provide 
access to private sector information. However, there's some 
policy issues.
    Frankly, in addressing this question, we're going where no 
one has gone before. For instance, the Joint Committee on 
Printing here on the Hill has a policy guideline against 
advertising. To what extent does making private sector 
information accessible through a government site constitute 
advertising?
    I've commissioned a study by the Interior Department's 
policy office to look at the statutory, the regulatory and 
whatever policy guidance may be extant right now on this topic. 
But from a citizen's perspective, as I indicated earlier, if 
you're interested in providing the best information for that 
person who's managing emergency response after an earthquake in 
Los Angeles or whatever, you want to make the best information 
available to them. You want to give them the opportunity to 
select the data that they would need to best meet their needs. 
And that begs a question, why not provide access to private 
sector information?
    But we don't know what our full regulatory and statutory 
constraints are yet, Mr. Chairman, and so we need to explore 
that.
    Mr. Putnam. Are the utilities considered public or private?
    Mr. Cameron. Well----
    Mr. Putnam. Would you be able to find out where to turn off 
the private company's gas line? Would you be able to find out 
where to shut off the power?
    Mr. Cameron. OK. Well, you're raising information that 
poses some security dimensions to it. For instance--you 
wouldn't want everyone in the country perhaps to have access to 
that sort of information. So even data sets that were available 
on-line, you might need to have some sort of security 
protection to limit the number of folks who could have access 
to that information, but in theory, yes, the portal would 
provide that capability to get that sort of information by the 
folks who have the right security clearances, who clearly had 
the need to have information that might otherwise be considered 
rather sensitive.
    Mr. Forman. Mr. Chairman, I think there's another important 
aspect of that, that clearly there is some geospatial and 
geographic information that is collected by the Federal 
Government. There's an awful lot of the data that we buy from 
the private sector, and a big part of the issue here is, do we 
have to buy it so many times?
    As you know, I'm a big fan of Web services and leveraging a 
transactions-based model where we don't actually have to buy 
complete data bases; but in this scenario, we're buying it from 
the private sector anyway. That doesn't mean we have to own and 
have huge data centers hosting that data. There clearly are 
commercial marketplace models that we need to be exploring, not 
just in geospatial, but in other data areas, and we are 
exploring, where we don't actually buy and copy the content and 
host it ourselves, but as Scott has said, get access to that on 
a different type of transaction model.
    Mr. Putnam. We're going to return to this. My time has 
expired, but before I call on Ms. Watson, Mr. Garie, could you 
please state your name and title for the record?
    Mr. Garie. Yes. My name is Henry Garie and I'm the 
executive director of the geospatial one-stop program.
    Mr. Putnam. Thank you very much.
    At this time, I'll recognize for 5 minutes the gentlelady 
from California, Ms. Watson. Welcome.
    Ms. Watson. Thank you very much, Mr. Chairman. I'm sorry 
I'm late.
    I probably missed much of what I'm going to ask, but when 
you talk about geospatial, are we talking about providing 
information to certain individuals in government or to the 
public? Let me give you a case in point.
    I represent Los Angeles, CA. We have a whole lot of natural 
phenomena, natural disasters; and let's just say, homeland 
security, would there be capability in a geospatial system to 
let us go into it, as elected officials, to be able to let our 
constituencies know what transportation routes they could take 
to get out of town?
    We had a case in 1992 where many of the post offices were 
closed down, and many of the drugstores. People called in and 
wanted to know where they could go and buy their prescription 
drugs. We went to the post office, picked up the welfare 
checks, took them to the--so that kind of information.
    We just knew it because we were on the ground, but I'm 
wondering--you talk about business, commercial, and you talk 
about government, and I'm wondering if your system would be 
developed to be able to get into it and give them commercial, 
retail information, transportation information, roadways that 
are safe for evacuation. How extensive--how general will it be?
    Mr. Cameron. Certainly in terms of the emergency response, 
what-are-the-best-roads-to-get-out-of-town-type questions, I 
think the answer would be yes. We would want to have this sort 
of information available to the appropriate person, the city of 
Los Angeles, L.A. County government, whatever it might be, to 
feed information to the radio broadcasters, for instance, to 
give advice to the general public.
    You raise some very good questions, essentially how far 
does one go? We don't want to duplicate services that are 
already out there in the private sector. We essentially don't 
want to become a service for retail companies to advertise the 
location of their stores, for instance. So there are some 
boundary issues that, frankly, we need to explore and we need 
to nail down; and to be honest, we're probably a year or 2 away 
from doing that. Our primary focus right now is getting the 
Federal agencies, the State agencies and the local government 
agencies to coordinate together to meet the needs of the 
persons in charge of, how do I handle an earthquake in L.A. 
County?
    Ms. Watson. May I just give you this scenario.
    We had an earthquake, as you know, in 1992, and we were out 
on the streets. And when we got to the city hall, we asked for 
help, because I just went around the district, and there were 
collapsed buildings and homes everywhere. And they said, 
listen, you've got to help us. Find the guy in the street with 
the hard hat and direct him.
    So we got out and we were a resource. I think whatever 
system is set up, there needs to be coordination across areas, 
and we need as elected officials, because we get the calls as 
well, the first responders are so occupied--I was out there 
directing traffic; you know, I mean, there were just fire 
engines going every which way and the police occupying and so 
on.
    So I think as you look at a comprehensive system, you need 
to consider how we coordinate into the public-private sector, 
into the community base. There are many organizations out in 
the community that would be helpful. So I think we should--and 
it's not favoring a commercial establishment over--but there 
are some NGO's that are in operation, could be in operation, 
and there are commercial businesses that could be helpful, so I 
think we ought to look into that if we want a comprehensive 
system that can do the job.
    Mr. Cameron. A very good observation, Congresswoman. One of 
the more interesting features of this version 1.0 of our 
portal, if you will, is our ability to essentially make a map 
on the fly, as he had referred to, take data from the county, 
from the Feds, take it from the city, lay them on top of one 
another; and then you could actually e-mail that composite map 
to some people that were on a distribution list that you 
thought would benefit from having that information.
    So a couple of clicks of a mouse, you could send out a 
1,000, 10,000 copies of that map to key players in the 
community who would benefit from that information.
    Ms. Watson. If I could just----
    Mr. Forman. Also, if I may, the disaster management 
initiative is specifically focused on this; and in our written 
testimony, we did talk about the relationship between the 
geospatial information and those actual sets of tools for the 
first responders.
    I think your point is right on target. It's a critical 
linkage that has to occur.
    Ms. Watson. Just one more thing. I think you can buy into a 
service called--what is it, Telstar or something-Star? And I am 
just fascinated by it, you know. You just push a button on your 
automobile and it tells you, hello, Ms. Watson, and you tell 
them where you want to go, and they direct you go to that 
light.
    I'm saying, is somebody following me that knows where I am? 
But I'm thinking--what is it, Telstar? What is the name of that 
system? OnStar. Marvelous. Wonderful.
    And so if we could, as you develop this, have the 
capability to do an OnStar kind of process to get a map, it 
would be very, very helpful. That's what they do, but as you 
develop it for more practical use, you might want to consider 
what they do.
    Thank you, Mr. Chairman.
    Mr. Cameron. A quick response to that. The public launch of 
the portal will be at a conference here in Washington June 
30th, but we'd be delighted to provide demonstrations to any 
members of the subcommittee between now and the 30th, who might 
be interested; and that will include staff of course.
    Mr. Putnam. Is it on-line now?
    Mr. Cameron. Yes, I believe the answer is, it is on-line. 
We certainly saw an on-line demonstration last week. I'm not 
quite sure it's ready for prime time today, but it is certainly 
demonstrable.
    Mr. Putnam. What is the address?
    Mr. Garie. We have the portal now running on a development 
server, and we would be more than happy to show you its 
capabilities at any time that would be convenient for the 
committee or individual members. The address will be 
www.geodata.gov.
    Mr. Putnam. Very good.
    I'll now recognize the gentlelady from Michigan, Mrs. 
Miller.
    Mrs. Miller. Thank you, Mr. Chairman. Just a couple of 
questions, and I think I'll followup on this whole coordination 
everybody is talking about, how you coordinate some of the 
different layers of government, I suppose. And I've been 
involved at the local, the county and the State and now here; 
and I remember at the local level of government where we were--
GIS was sort of in its infancy in a former lifetime of mine 
when this all started, and how fascinating it was.
    At a local level we started with the GIS and you start 
doing your mapping, your overlay with your infrastructure, and 
the fire hydrants and water mains and all of that; and at the 
county level you start putting on the park system and 
demographics; and then the State level is doing interstates and 
all these kinds of things.
    But as you were outlining the possible scenario for a 
homeland security, a terrorism attack, what have you, you need 
to be able to access that. You would have to know what the PSI, 
for instance, would be at a particular fire hydrant, what kind 
of underground capacity you have and all of these kinds of 
things.
    What percentage of municipalities or counties or States are 
even involved with GIS, and how much capacity is out there for 
you to even access, as you begin your construct to some of 
these overlays? Where are we? I mean, it is sort of a new 
thing. I mean, the Internet is relatively new, and GIS is quite 
a bit newer than even that.
    Mr. Cameron. All 50 States are certainly involved. Hank, in 
fact, is past-president of an organization called the National 
States Geographic Information Council, that has been around for 
quite a few years.
    I think it's fair to say that virtually all the larger 
local governments across the country have GIS. For instance, 
New York City relied on GIS extensively after the September 
11th attacks to figure out where the gas pipelines where, where 
the subway tunnels were, to try to figure out how to respond. 
So the medium-size and larger local governments across the 
country are involved in GIS right now to a varying extent.
    As you might imagine, the more remote areas and poorer 
communities are probably less likely to have this sort of 
capability.
    In terms of the numbers, Hank, would you want to hazard a 
guess on how many local governments have the GIS capability?
    Mr. Garie. Well, let me begin by saying geospatial one-stop 
is really all about partnerships. The information is on 
organizational partnerships, not so much technology; and the 
fact of the matter, as Scott described, that our 
intergovernmental board of directors relies on inputs from 
local associations is a testimony to our recognition of how 
much GIS activity is happening out there locally.
    I can speak probably most directly from my New Jersey 
experience, where in New Jersey each of the 21 counties have 
GIS capabilities that's tied in with the State partnership. And 
so this partnering is happening across the country, where 
States are working with counties, who are working with 
municipal governments.
    What geospatial one-stop is doing is putting in place this 
Internet library card catalog, if you will, that we will work 
through our associations on the board to encourage those State 
and local governments to join into this national network, and I 
think with the technological advances and the partnership 
potential, we can wrap our arms around a lot of the local 
digital data that you've alluded to.
    Mr. Cameron. In fact, if I could followup, one of the 
advantages that we hope will flow from the geospatial 
marketplace that I referred to earlier is, any market tends to 
create a situation where prices goes down, demand goes up and 
more people can take advantage of what is being bought or sold, 
so we're hoping that the geospatial marketplace will make it 
easier, less expensive for a wider variety of local 
governments, for instance, to afford and take full advantage of 
GIS technology.
    Mrs. Miller. And, you know, it would also seem to be a 
critical element that you would--all of you talked a lot about 
uniformity and having standards, and being able to access this 
information. Who is driving the standards, for instance, at the 
local level, the county level? Are there the different 
associations? The State Associations of Governors, for 
instance, does this drive the standards for the State? Is there 
uniformity?
    Is that a big problem?
    Mr. Garie. It is a big problem. One of the things 
geospatial one-stop is doing with respect to standards is 
making sure that our process is inclusive, that we've invited 
those State and local representatives to work with us. And 
again we're focusing through the associations. And the fact 
that NACO, the National Association of Counties, has an active 
GIS presence and the National States GIS Council are all 
involved helps us bring those locals to the table.
    I do think there are leadership roles clearly at the State 
level that can help promote and encourage that type of 
consistency.
    Mrs. Miller. You know----
    Mr. Cameron. We have really gone out of our way to make 
sure that State and local governments are actively playing in 
standards developments.
    I think one of the fair criticisms of first-round standards 
development at the Federal level that started in the middle 
1990's was that it was very Federal-centric. Maybe, in 
essentially the 1990's, the Feds did have something of a 
monopoly on GIS, but the reality is that the State and local 
governments have more data, better data, right now and it only 
makes sense to get State and local governments as actively 
involved in standards development as they can stand; and we've 
made a very intense effort to do just that, because if this 
project does not meet the needs of State and local governments, 
it fails, and that is essentially our perspective.
    Mrs. Miller. Right. Well, not only the needs of State and 
local governments, as you mentioned--in this case, I think it's 
sort of the bottom up.
    For instance, you're talking about a homeland security 
situation; again, you would need the information from the local 
fire department, who--their fire inspector has information 
about a hazardous material in a particular building. There's no 
way the Federal Government would have that. It all sort of 
emanates from the bottom up.
    Just one other question: In regards to private data that 
was mentioned about private data and accessing private data, 
could you give--some of you, any of you give me an example of 
what kind of private data you would overlay? Is there a pool of 
private data out there that you would like to have that you're 
having difficulty getting?
    Mr. Cameron. Well, if a policy decision were made and we're 
not there yet--although we're awfully intrigued by the 
possibility--if the policy decision were made to incorporate--
or make private data accessible through a portal, for instance, 
probably elevation data would come to mind. There are a lot of 
satellite companies--or companies involved in aerial 
photography that can give you much, much higher resolution on 
elevation, like to the nearest foot, or less than that in some 
cases, that's better quality frankly than what's in the typical 
Federal card catalog, if you will.
    So if you're worried about a flood issue in St. Louis or 
the Sacramento River Valley, for instance, you might need to 
know to the nearest 6 inches what the elevation of that levee 
was; and that is the sort of information that the private 
sector can readily provide, and it would be one of the cards in 
that card catalog. So the manager could make an informed 
decision about which data base could best serve their needs.
    Mrs. Miller. Thank you, Mr. Chairman.
    Mr. Putnam. Thank you, Mrs. Miller.
    There's a recurring theme that the State and local data and 
private data is superior to Federal data.
    Is that because it is more current or it is a higher 
quality?
    Mr. Cameron. It is generally more current and to be fair 
here, there are a large number of Federal agencies and NASA for 
instance, that has satellites up there all of the time are 
taking data, obviously, getting current information. But if one 
were to look at the old standard, the U.S. Geological Survey 
quadrangle, a lot of those quadrangles are 10 years old, 20 
years old, 30 years old. They are at a scale of 1 inch equals 
20,000 inches as opposed to 1 inch equals 1,000 inches or 2,000 
inches.
    Mr. Putnam. So does the government not need to update those 
maps because the better map exists in the private sector, and 
we don't need to buy the same data again?
    Mr. Cameron. I think the way to look at it is as a society, 
we have needs. The agencies have needs, the private sector has 
needs, different levels of government have needs. Geospatial 
one-stop is a way for the community to get at the best data 
that's available in the community. So if a local government had 
better information in a particular geographic location, 
geospatial one-stop portal would allow a user to get that local 
government's information, again, with the cooperation of that 
local government. We are not in a position of dragooning 
anyone's data.
    Mr. Putnam. If a locality could purchase private data, that 
is good to 1 foot on elevation, why would FEMA, as part of 
their recurring updates, go in and remap flood maps for an area 
if the data exists in the private sector?
    Mr. Forman. That is exactly the issue. And FEMA is a 
perfect place to look for that because they did have a similar 
issue to that. Not just FEMA, but the Corps of Engineers, the 
Interior Department, the Agriculture Department, they were 
essentially buying that same data and then occasionally we 
would come across another agency that would go out and collect 
that data itself. So we had multiple people collecting the same 
data and multiple agencies buying sometimes the same data 
multiple times. We would like to see that money not go to buy 
the same data multiple times, but buy the data once and invest 
in the applications that allow us to get the value out of the 
data.
    I think one other key element of this to understand the 
difference between urban areas or areas that might be regulated 
by State or local organizations like the State Agriculture 
Environmental Protection Department. Somebody's going to have 
to collect that data. There's a lot of overlap in those 
regulatory processes. But each regulator doesn't need its own 
version of that data. And the portal allows us to start to 
manage the data investments a lot better because we already 
know something is there.
    In an urban setting, there's no question that the local 
government is going to probably have the best data across that 
whole geospatial layer because they will have the permitting 
that went into building whether it's the gas lines or the power 
lines or the phone lines, they all basically go through a 
permitting process that requires the geospatial data. A lot of 
the local governments have made tremendous improvements in 
aggregating that geospatial data and really at the heart of 
governance to regulate how they manage that asset of that 
community.
    So we know the best data is there. What we're trying to do 
is not have a Federal agency go then and survey that land 
again, buy another copy of that data and then give out money 
for government programs to the local government at the Federal 
data set as opposed to the local government data set. So we 
have to go through milestones to get to that nirvana of more 
effective management of those investments.
    Mr. Putnam. Let me run through a couple of fairly quick 
questions, but they are important. This initiative is 
classified under the government to government umbrella. Is that 
because you primarily see your customers, your users, your Web 
browsers being State and local governments?
    Mr. Forman. Correct.
    Mr. Putnam. And not so much a citizen who would like to 
have a really great looking aerial photograph of Yellowstone or 
a nautical chart for fishing off the coast of Florida?
    Mr. Forman. That's correct.
    Mr. Putnam. There is a board that is mentioned in Mr. 
Cameron's testimony that includes representatives of tribes, 
State and local governments, western Governors and several 
Federal departments. How often does it meet?
    Mr. Cameron. It meets on an as needed basis. We have been 
doing conference calls as well as face-to-face meetings, I 
think, we have probably been averaging about once every 6 weeks 
for the last 4 or 5 months.
    Mr. Putnam. Is there a representative from the private 
sector on the board?
    Mr. Cameron. There is not a representative from the private 
sector on the board. That is a reflection of the fact this was 
conceived as a government-to-government initiative from the 
very beginning.
    Mr. Putnam. Do you envision expanding over time as the 
portal opens and the governments figure out how to get that 
information on? Is that a natural evolution?
    Mr. Cameron. I am not sure, because I think this will 
fundamentally stay a government-to-government initiative. I 
should say we are actively engaging the private sector in 
standards development. We have clearly been relying on private 
sector expertise for the portal for instance, and these board 
meetings are open to the public. We don't lock out someone just 
because they're not an employee of a Federal, State or local 
agency.
    So we're engaging the private sector. But since this is a 
government-to-government project, I'm not sure it's appropriate 
to put the private sector on the board, and besides, who would 
speak for the private sector?
    Mr. Putnam. We resolve those issues on a regular basis with 
different boards in 100 different things in the government. But 
your testimony says formation of this board is intended to 
facilitate the ability of governments to leverage their 
individual resources to become more efficient, more cost 
effective, and to better serve. And your own answer to my 
question, you said that the private sector in a lot of cases 
has better information. How would the local governments know 
that there's something better out there if they are not exposed 
to something like this board?
    Mr. Cameron. The vendor community is very effective at 
marketing. And if a decision is made to make private sector 
information accessible through the portal to add it to the card 
catalog, if you will, then it would be very easy for anyone out 
there to get information on private sector services.
    Mr. Putnam. You made reference to that a couple times if 
the policy decision is made to include the private sector. 
Where is that decisionmaking process. Is it your call, Forman's 
call? Who makes that call?
    Mr. Cameron. We'll be happy to have as wide a conversation 
on that topic as you like, Mr. Chairman. In fact, since we are 
paving new ground here, if the committee has any insights or 
any views on this, frankly, we would welcome the suggestion. 
The first step is to try to figure out what the current 
statutory, regulatory policy framework is. Once we get that 
settled, then we'll know what our options are or are not under 
current law. And if the prevailing views of the board, for 
instance, are that we ought to have private sector information 
available, then I'll need to consult with Mark, because our 
friends at OMB have a controlling influence on information 
policy administration-wide.
    And as we move forward with it, then if there are any 
suggestions that the committee would care to make. At this 
point, the primary obvious issue, in fact, is a congressional 
one. This Joint Committee on Printing. Does making private 
sector information available through government portals, in 
fact, constitute advertising? I don't know. Maybe the committee 
can enlighten us on that.
    Mr. Putnam. Who is ultimately responsible for implementing 
the vision of geospatial one-stop. Is it you, Mr. Forman?
    Mr. Forman. That would be Hank.
    Mr. Cameron. I don't think we will put Hank there.
    In consultation with the board, I make the decisions until 
Mark Forman or Gail Norton tell me I'm wrong is sort of the 
situation.
    Mr. Putnam. So Interior?
    Mr. Forman. Interior is the lead partner for this, the 
managing partner for this. And Hank is the program director, 
the executive director of the program. My view on this is we 
come to an agreement via the business case process and what are 
the milestones, the performance measures and program plan, and 
it's Hank's job to deliver on that.
    Mr. Putnam. Historically, Interior is where all the maps 
were. We had all these tremendous natural resources, had these 
public lands mostly in the West. If you go back far enough, we 
had the whole settlement issues, homesteading and all of those 
kinds of things that over time led to a lot of true pen-and-
paper type maps being in Interior. Then we put a man on the 
moon and we started having satellites, and we're able to take 
aerial photographs.
    Now most of the discussion we have had on geospatial really 
has focused, to a large degree, on first responders, homeland 
security, things that would be much more important to the city 
of New York than to the Bureau of Lands Management in the 
middle of Wyoming.
    So Interior--is it still the appropriate foci of 
cartography, and now geospatial information for the Federal 
Government?
    Mr. Forman. When we posed this question to the Deputy 
Secretary via the President's management council, that was the 
choice to make them the managing partner. So that represents an 
agreement among the COOs, chief operating officers of the 
government.
    Mr. Cameron. Your observation, I think suggests why it's so 
important that we actively involve other Federal agencies, that 
we actively involve State and local governments because of the 
broad community of needs out there, broad community of 
interests, broad capability of interests and it would be 
foolhardy for one particular entity to try to go this alone. It 
wouldn't make any sense and that's why we are making such a 
special effort at bringing in the States, the locals and other 
Federal agencies in the decisionmaking process on how this 
project evolves.
    Mr. Putnam. This time I will recognize the distinguished 
ranking member of the subcommittee, Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman, for holding this 
hearing. I thank all the witnesses for taking the time to work 
with us today. Mr. Forman, good morning. Implicit in your one-
stop proposal is collaboration between the Federal Government 
and State and local governments. Some have suggested that this 
is a one-way exchange. Has OMB considered a geospatial block 
grant program where a part of the $4 billion spent federally is 
sent to State and local governments to develop local 
infrastructure?
    [The prepared statement of Hon. Wm. Lacy Clay follows:]
    [GRAPHIC] [TIFF OMITTED] T1647.037
    
    [GRAPHIC] [TIFF OMITTED] T1647.038
    
    Mr. Forman. I'm not aware of any and that could just be my 
lack of knowledge. So if I could get back to you on that, Mr. 
Clay, I would appreciate that opportunity.
    Mr. Clay. Sure, I would appreciate it. Ms. Koontz, as you 
point out in your testimony, the objectives of geospatial one-
stop are not significantly different from those the government 
has been struggling with for over a decade. For example, one of 
the objectives is to finalize the seven framework standards 
that have been under development for most of the last decade. 
What has changed that would make us believe suddenly that these 
objectives are going to be met?
    Ms. Koontz. Well, in terms of developing the standards, I 
think you have to remember that standards development is a 
consensus-based process, and under the best of circumstances, 
is going to take a long time. Whether, you know, eight 
standards over 13 years is the most efficient pace, I don't 
think I could tell you. The point about geospatial one-stop is 
that its goals are very similar to what's been going on in the 
past.
    But I think what we saw as the task at hand is a near-term 
kind of strategy. And I think what I would like to see and what 
I think is lacking here is a longer-term strategy which is 
really going to get us where we want to go in terms of having a 
strategy for how are we going to address the other 26 standards 
that still need to be developed. I think there needs to be 
greater involvement with State and local governments. And in 
the geospatial one-stop, despite the board of directors and the 
involvement of many, many associations, I think there's some 
question as to what extent those associations are reaching out 
to their constituents and involving them.
    The key thing here is, I think, to make the portal 
ultimately work, you have to have the standardized data behind 
it, and that will depend on getting enough involvement from all 
the key players to make sure they agree with the standards and 
will eventually adopt them. And that's what will populate the 
portal in the end.
    Mr. Clay. Ms. Koontz, I would like your reaction to a 
proposal that an agency that does not adequately report and 
document its geospatial holdings be fined a percentage of its 
budget to go toward a contractor to perform those functions. In 
other words, an agency can either do the work or be required to 
pay to have the work done. What's your reaction to that?
    Ms. Koontz. I sense there's a legal question lurking in 
there somewhere, but I don't want to go too far with that. 
That's OMB's role to ensure the cross-agency coordination and 
also to work with agencies because they have the power of the 
budget to take steps to make sure that agencies are doing what 
they're supposed to do here.
    Mr. Clay. Mr. Forman, would you like to comment on the 
proposal?
    Mr. Forman. I think there is room for many components. 
Ultimately the funding and financing does rest with the 
Congress. And I think that would be a very fruitful discussion 
to enjoin your involvement in this process.
    Mr. Clay. Has OMB considered this proposal?
    Mr. Forman. Similar proposals, I wouldn't say one where we 
just take the money away and then would use it to hire 
contractors, because we generally don't get involved in the 
contracting process. But withholding funds until agencies close 
room gaps in business cases we have done frequently over the 
last 2 years in this area as well. Budget data requests is 
something else we have done in this area as well. And there is 
a need for better reporting, there's no question about that.
    Mr. Clay. Thank you very much. Thank you, Mr. Chairman.
    Mr. Putnam. Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. Just a quick question 
and not to keep going on about how important it is you have all 
said that about coordinating with State and local governments, 
but even when you use the example of FEMA, you know, another 
example, I think, within the last maybe 5 or 6 years, I think 
every county in the entire Nation has been required to 
remonument as well. For all of that survey data, I mean, it is 
all out there if you can access. And you know, just to followup 
on what Representative Clay had mentioned about whether or not 
it would be appropriate from a block granting standpoint.
    We have a tremendous investment already at every level of 
government and we intend to continue this level of investment. 
Is there any thought at all, and I'm not sure whether it would 
be appropriate or not, but is there any thought about having a 
fee structure in place for accessing the data? Is there any way 
for the government to recoup some of this cost as people may 
utilize it particularly out in the private sector?
    Mr. Forman. Personally, I think those are decent ideas. 
Generally we would like to see that evaluated as part of the 
business case. And when we originally evaluated this in the e-
government strategy, there were estimates that as much as 50 
percent of the investment was wasted. So we chose the portal 
approach and the Santos approach because it is the fastest way 
to get to a buy one and choose many or collect one, choose many 
paradigm.
    And if we could save 50 percent of the spending across 
Federal State and locals, that would free up several billions 
dollars worth of resources. As we move to the next phases, 
clearly we should explore some of the other aspects of the 
business model. Those are fine avenues to take a look at.
    Mr. Garie. Perhaps I could offer one insight with respect 
to fees. A number of States and county governments as well have 
explored this aspect of trying to recoup costs for data 
development. The general consensus is that setting up fees for 
data often provides a larger disincentive for people to access 
and utilize the information than funds one can recoup.
    Mr. Putnam. Would you yield for 1 second? There are some 
geospatial products that the government does charge for. How is 
that decision made about what products are free and which ones 
are not? And how is the decision made about the price?
    Mr. Cameron. The general policy, Mr. Chairman, and Mark can 
correct me, the general policy is that Federal geospatial data 
is provided at the cost of printing and reproduction. I think 
that is in the OMB circular 130, but I could be wrong. The 
general policy is you don't try to recapture the cost of 
collecting the data in the first place. In some cases, the cost 
of reproduction could be a dollar, and some cases, it could be 
$10 depending on the product. Of course, if you are getting it 
off the Internet, it's basically zero.
    Mr. Putnam. I yield back. Thank you, Mrs. Miller.
    Mrs. Miller. Do any of you have any advice for us on how 
the Federal Government could encourage the State and local 
governments to do even more with their GIS to really supplement 
what we're trying to do, even from an economic incentive 
standpoint? What could we be doing?
    Mr. Forman. This gets to the genesis of this initiative 
coming out of our focus groups that we held. Local 
organizations or a city organization can buy or assemble 
geographic information. It's very unusual to have a county co-
use that information. Moreover, a State typically works with a 
county and often wouldn't share information with the city. So 
what the group told us is that the Federal Government had to 
step up to a leadership role because we too share the data, 
although oftentimes, not to that level of detail that a local 
government needs. And hence, the focus on standards came out. 
The ability to standardize or--from the bottom--literally from 
the local government up to define what should be the content of 
the data within the themes. And then the other aspect was that 
creation of a portal, which, again, was seen as a central 
Federal responsibility that the local governments could then 
use to access that data.
    Mr. Cameron. To be fully responsive to your question, it's 
amazing how a very small investment in cash or a partnership 
grant can make a difference to a local government. $10,000, 
$20,000, can make a big difference. Without appearing to lobby, 
I think I need to inform the committee there's $1.5 million in 
the Presidents fiscal year 2004 budget that is part of the 
budget for the geospatial one-stop project. This $1.5 million, 
in fact, would be grant money to State and local governments to 
foster some of these partnerships. So the committee might want 
to be aware of that.
    Mrs. Miller. Thank you, Mr. Chairman.
    Mr. Putnam. Ms. Koontz, GAO, in your testimony said, 
``unless the underlying geospatial data offered through the one 
State portal are standardized across data providers, the 
additional functionality offered by the portal may be of 
limited value.'' You also say while geospatial one-stop's 
objectives are important they do not represent a significantly 
new or different approach to the GIS integration problem that 
the government has been struggling with for more than a decade. 
Mr. Clay mentioned that as well. What's it going to take? What 
did your report find that it's going to take either from the 
Congress or from the OMB or the individual agencies to really 
get its arms around standardization to make this a meaningful 
customer service government-to-government tool?
    Ms. Koontz. You're absolutely right. Standards are the key 
to this entire undertaking. I think that at the risk of 
repeating myself, I think there's a need for a longer-term 
strategy. While the geospatial one-stop represents some short-
term goals, I think we need a longer-term strategy as to how to 
develop the standards. And in addition, I think we have some 
concerns about how extensive the involvement has been in both 
the standards making process by all Federal agencies and we 
have some concerns about State and local involvement in the 
geospatial one-stop.
    Mr. Putnam. The lack of?
    Ms. Koontz. The lack of. I wouldn't say there's an entire 
lack, but we are concerned there is not as much involvement as 
is really needed here. Obviously geospatial one-stop has taken 
some steps to involve the State associations, but we still have 
questions about the extent of the involvement. And the key here 
is that unless State and local governments agree with these 
standards, it's--and they believe it will meet their needs, 
it's unlikely they are going to adopt these. It is the same 
with other Federal agencies.
    Tremendous investments have already been made in geospatial 
information systems. I think that Federal agencies, State and 
local governments, need to have an incentive to change what 
they're doing to conform to what's needed for geospatial one-
stop and the portal.
    Mr. Putnam. Are you satisfied with the structure that's 
been put in place that the structure provides a framework for 
the right people to be making that long-term goal setting or 
developing that vision?
    Ms. Koontz. I think that the structure we have in place 
could work. Having Interior as a lead, you know, makes some 
sense. The reason that we have Mark Forman's position as 
administrator for e-government is to ensure the coordination 
across the Federal agencies; that needs to happen in order to 
make this successful.
    Mr. Putnam. In the old days, a lot of different agencies 
have been tasked with collecting an awful lot of data and 
mapping it. Do we have warehouses somewhere full of maps?
    Ms. Koontz. Probably.
    Mr. Putnam. Does anybody have a definitive answer? Mr. 
Forman, do you know?
    Mr. Forman. I intuitively believe its warehouses and we 
should get back to you on that. It would be interesting to see 
how many there are. I have seen places even in the Capitol 
where we have--when I was on the Senate Governmental Affairs 
Committee staff, maps that had to be submitted to us and 
archived. So I know these places exist. I don't know where they 
are.
    Mr. Putnam. We have a hearing coming up on preservation of 
records and electronic archiving and things like that which 
hopefully the results will lead us to a more efficient and 
streamlined archiving process that might allow us to reduce the 
number of warehouses under GSA's control that are storing maps 
that no one uses or even is aware of their existence.
    Mr. Cameron. With your indulgence, could I respond to a 
couple of the observations made by GAO?
    Mr. Putnam. You may.
    Mr. Cameron. I guess I would fundamentally disagree with 
the premise that this round of standards exercises is 
essentially the same as what we have done in the past. There 
are a number of significant differences. For one thing, we are 
actively involving State and local governments in the front end 
in ways that the Federal Geographic Data Committee did not do 
in the 1990's when they were working on standards. And that's a 
very significant difference.
    The earlier round of standards development was really 
standards by techies for techies by the Federal Government for 
the Federal Government. We established, as a matter of policy 
from the get-go here, that we are trying to develop standards 
that work for the local person on the ground, flood plain 
manager in St. Louis, the county extension agent in Polk 
County, the State Recreation Department in Michigan.
    So that's a difference in outlook and perspective. As a 
point of fact, we are field testing these draft standards with 
State and local governments. Dozens of them signed up for the 
opportunity. That hasn't happened in the past. So I guess I 
would disagree with the premise that this round of standard 
making is the same as what we had back in the 1990's. I think 
it's fundamentally different, both in its philosophy and its 
practice.
    Mr. Putnam. Mr. Forman.
    Mr. Forman. My experience would say that to be successful 
in something like this, you are going to need processes, you're 
going to need a governance structure and we would need to 
bridge technology. I think there's something different in all 
three of those areas. First of all, we really didn't have 
standardization process, and that's one of the aspects that the 
geospatial wants to help us build. It is very much a bottoms-up 
from State and local government because that whole office was 
set up to respond to the needs of State and local governments.
    Second, there is no organization. I don't think anybody 
could imagine that you could manage something like this by 
committee, like the Federal geographic data committee was set 
up. I know that was government as usual back then. This needs a 
program office and it needs somebody that comes from the 
customer or the user community. That's why Hank is here. He 
understands that from the perspective of our customers at State 
and local governments. That's a big difference. And third is in 
the area of technology. 10 years ago, we didn't have portals, 
Web services or shared services. The technology really did not 
allow you to take advantage of a standard in a collect one, 
choose many or buy one, choose many. That's new and that is 
another integral part of this program.
    Mr. Putnam. Obviously there is an awful lot of pride in 
this program, and you guys are working hard to make it 
successful. It's revolutionary or has the potential to be. And 
we're certainly excited of being a part of helping to make it 
work and involving State and local, private, the Federal 
Government. But Mr. Forman, like we've heard so many times on 
other topics whether it's information security, cyber security 
a lot of this comes back to not being a process problem or not 
being a technology problem, but being a cultural or a personnel 
problem. Frankly, as long as these agencies are going to 
continue to ignore circulars and directives and the law, we 
will continue to have a problem. So the degree to which we can 
be helpful in highlighting inadequacies and failures to comply 
by the agencies who are given very specific missions, we would 
be happy to fill that role and will be doing so.
    So I look forward to working with you all in the future as 
we review how much money the government's spending on this, 
what the status of our map supply is in warehouses or wherever 
and ways we can continue to make this portal a successful tool 
for customers, citizens, taxpayers to use. With that, we will 
dismiss the first panel and bring in the second panel. Thank 
you very much for your testimony.
    Second panel, if the witnesses are here, please come and 
take your seats at the table. The subcommittee will reconvene. 
We have our second panel seated. Did all of you take the oath 
when we swore in the first panel or do we need to do that 
again? Did any of you not take the oath? We are happy to do it 
again. All right. Very good, we will move forward. We will 
begin in one moment.
    Again, under the ``ladies first'' principle, we will begin 
with Susan Kalweit, Chief of the Interagency Geospatial 
Preparedness Team, with the Office of National Preparedness 
with FEMA. Ms. Kalweit is currently detailed from the National 
Imagery and Mapping Agency to the Federal Emergency Management 
Agency. At FEMA she is leading the Interagency Geospatial 
Preparedness Team. The aim IGPT is to develop in 1 year's time 
a strategy for underpinning our Nation's preparedness for all 
hazardous emergencies through a geospatial information network.
    She previously has been the deputy chief of the North 
America and Homeland Security Division at NIMA. That means she 
has officially taken all of our pictures a number of times in 
her career. We welcome you to the subcommittee and we recognize 
you for your testimony.

     STATEMENTS OF SUSAN W. KALWEIT, CHAIRMAN, INTERAGENCY 
GEOSPATIAL PREPAREDNESS TEAM, FEMA (DHS), FORMER DEPUTY CHIEF, 
NIMA NORTH AMERICA AND HOMELAND SECURITY DIVISION; GENE TROBIA, 
PRESIDENT, NATIONAL STATES GEOGRAPHIC INFORMATION COUNCIL; JACK 
  DANGERMOND, PRESIDENT AND FOUNDER, ESRI, INC.; AND MICHAEL 
 RITCHIE, P.E., L.S., C.P., PRESIDENT, MANAGEMENT ASSOCIATION 
             FOR PRIVATE PHOTOGRAMMETRIC SURVEYORS

    Ms. Kalweit. Chairman Putnam, Vice Chairwoman Miller, 
Ranking Member Clay, thank you very much for this opportunity 
to discuss the benefits that a map-related data infrastructure 
brings to homeland security. I will be summarizing my written 
statement here. During Operation Iraqi Freedom, we witnessed 
how mapping technology played an integral role in our war-
fighting strategy. The global positioning system [GPS] and 
highly precise terrain data guided precision munitions to their 
targets. News correspondent used the combination of perspective 
scene visualization tools, geographic information systems [GIS] 
and commercial satellite remote sensing systems to show the 
American public where battles were being fought, what areas had 
been secured by the U.S.-led coalition, and the terrain 
challenges that our Marines and soldiers faced as they moved 
toward Baghdad.
    These technologies used by our military can aid in 
detecting, preventing and deterring terrorist activity and 
saving lives and protecting property in all-hazard disasters. 
In short, these mapping technologies which I will refer to as 
geographic information technologies are as necessary to our 
defense on the war on terrorism as they are to our offense. 
Over the next few minutes, I will describe generally the state 
of our Nation's geographic information infrastructure within 
the context of how such an infrastructure supports homeland 
security.
    The convergence of GPS, GIS, visualization tools and remote 
sensing technologies combined with advances in wireless 
communication, grid computing and Web services present us with 
the opportunity to leverage location as the common information 
component for homeland security. I am talking about 
underpinning our Nation's preparedness with an infrastructure 
of current and accurate location-based information that is 
available wherever, whenever and however it is needed. The 
stimulus for geospatial one-stop is the fact that geographic 
information is critical to many business areas in the public 
and private sector and there's a tremendous need to share 
information and eliminate redundant spending.
    Data holdings and their stewards that comply with standards 
and emphasize policies to share information model what our 
Nation needs to build and maintain the geographic information 
capacity critical to homeland security. When using this model 
as a standard to measure the current state of our national 
geographic information infrastructure, you realize that across 
our Nation, the quality of the data, the use of standards and 
the ability to share data varies widely.
    This is insufficient for a Nation that needs to detect, 
prevent and respond to all hazards anywhere. The graphics that 
I have provided, which I hope you have, demonstrate the 
significant advantage homeland security planners, managers and 
responders have when they incorporate geographic information 
technologies in their business processes. Graphic one shows the 
results of tying the above ground infrastructure to the below 
ground infrastructure in New York City during the weekend of 
the September 11 memorial services in 2002. This graphic 
depicts the proximity of the VIP riser to the Brooklyn Battery 
Tunnel, highlighting a potential physical vulnerability at the 
site.
    While mitigation of the tunnel's general vulnerability was 
included in the event security operations plan, NIMA analysis 
of the area as depicted here resulted in additional security 
precautions being taken. Graphic 2 depicts the damage created 
by a tornado that swept through La Plata, Maryland in 2002. No 
one in that local jurisdiction expected such an event, which, 
in its aftermath, had a tremendous emotional as well as 
financial impact on the town. The imagery in this graphic, and 
others like it, were used by Maryland to assess the damage for 
transportation signals, general structures and forests.
    In addition, it helped settle some insurance claims 
quickly. The imagery also was used as the best available map to 
plan the reconstruction of the town. Graphic 3 depicts how 
local responders use geographic information technologies for 
incident management. This example was taken directly from the 
E-government Initiative Disaster Management, which located and 
pulled the imagery into its system using the technical 
interfaces promoted by geospatial one-stop. These screen shots 
from the recently completed TopOff II exercise in Seattle show 
the enhanced value of the geospatial one-stop products, the 
imagery in this example, to the incident managers. They stated, 
``This is the interoperability picture we have been wanting for 
years,'' and ``disaster management and geospatial one-stop 
services will work together to save lives, property and 
businesses.''
    Graphics 4 and 5 depict the utility of geographic 
information technologies for keeping the public informed in the 
aftermath of September 11. These examples were taken from the 
New York City Web site. The information provided by that Web 
site and the interactive application of Emergency Management 
On-line Locator Service helped local citizens stay informed on 
the status of their working, commuting and living conditions in 
lower Manhattan. Information provided included geographic 
representations of water, gas, electric steam and the subway as 
well as the status of water crossings, building conditions and 
various access zones in lower Manhattan.
    Mr. Chairman and members of the committee, I appreciate you 
giving me this opportunity to testify on this very important 
issue.
    Mr. Putnam. Thank you very much.
    [The prepared statement of Ms. Kalweit follows:]
    [GRAPHIC] [TIFF OMITTED] T1647.039
    
    [GRAPHIC] [TIFF OMITTED] T1647.040
    
    [GRAPHIC] [TIFF OMITTED] T1647.041
    
    [GRAPHIC] [TIFF OMITTED] T1647.042
    
    [GRAPHIC] [TIFF OMITTED] T1647.043
    
    [GRAPHIC] [TIFF OMITTED] T1647.044
    
    [GRAPHIC] [TIFF OMITTED] T1647.045
    
    [GRAPHIC] [TIFF OMITTED] T1647.046
    
    [GRAPHIC] [TIFF OMITTED] T1647.047
    
    [GRAPHIC] [TIFF OMITTED] T1647.048
    
    Mr. Putnam. At this time we will recognize Gene Trobia, who 
serves as the Arizona State cartographer which staffs the 
Arizona Geographic Information Council.
    Through his work with the SCO and AGIC, Mr. Trobia 
establishes State GIS standards, coordinates multi agency 
projects and improves access to data bases. He has worked in 
the geographic information field for over 20 years. He 
previously worked for the Utah-automated Geographic Reference 
Center, and was the director of the Pima County Engineering 
Geographic Information Services in Tucson, AZ. He holds a BLA 
and MLA in landscape architecture from the University of 
Arizona and is past president of AGIC. The Arizona Geographic 
Information Council has received a FEMA grant for $50,000 
through the Arizona division of emergency management to conduct 
both an inventory of geospatial data resources and contacts and 
a series of workshops in providing data to first responders. 
Welcome to the committee.
    Mr. Trobia. Thank you, Mr. Chairman. Chairman Putnam and 
members of the subcommittee, thank you for inviting the 
National States Geographic Information Council [NSGIC], to 
participate in this important hearing examining geospatial 
technology as a national asset and a tool that can transform 
the way government operates and connects to its citizens. NSGIC 
is a nonprofit organization that promotes effective government 
through the widespread adoption of Geospatial Information 
Technologies [GIT]. NSGIC provides a national forum for State 
GIT leaders and advocates for development of the National 
Spacial Data Infrastructure [NSDI]. Members of NSGIC include 
State government managers, coordinators and representatives 
from lead State GIT offices and statewide groups involved in 
the daily coordination and application of geospatial 
technologies.
    Nearly all information managed by government is 
locationally based. Using location-based data with GIT allows 
government decisionmakers to better understand and clearly 
visualize the impacts of their decisions. Our members support 
such functional areas of civilian government as public safety, 
health, transportation, agriculture, land management and many 
others. I offer three key issues for consideration by the 
subcommittee.
    They each represent a major focus area for our members. 
One, effective statewide coordination is required between State 
and local efforts. Two, the NSDI must be completed in a timely 
fashion to support public safety applications. And three, 
geospatial data is a public resource for effective governance. 
On effective statewide coordination, I want to say NSGIC is 
ready, willing, and able to help build capacity and coordinate 
State geospatial activities. NSGIC believes that effective 
statewide coordination bodies must be active in working between 
local and Federal Governments. States can provide 50 points of 
contact for the Federal Government instead of the Federal 
Government working with 3,141 counties or 18,000-plus 
municipalities across the Nation.
    Many of our coordinating bodies and especially in Arizona, 
I would say the coordination councils are made up of Federal, 
State, local, tribal and private sector partners already. So 
you are getting to the people. With proper incentives from 
Federal Government, States can provide area integration and 
create portals that can push data to Federal Government. 
Federal field office staff should improve their communications 
by working with State coordination groups and become involved 
with those local, State GIS communities and completion of the 
NSDI.
    Implications of geographic information technology are 
profound. Location is the single threat common to all data. A 
fully implemented and robust NSDI will empower public and 
private decisionmakers. For example, fire and police 
departments can review locations and frequencies of fires and 
crimes and redeploy their assets. This results in reduced 
crimes, faster response and safer communities. NSGIC believes 
the benefits of NSDI can only be realized through 
intergovernmental and private sector coordination, 
collaboration and partnerships. As a public resource, the daily 
work of all agencies must be organized and made available in 
unprecedented ways to feed emergency managers and others the 
information they need to do their jobs effectively. Congress 
should direct the FGDC and the Department of Homeland Security 
to develop a sound national policy for data access in 
consultation with State, tribal and local government, and the 
private sector. These policies should provide for reasonable 
access by all entities for their business purposes.
    Restrictions and redistribution or disclosure of the data 
may be appropriate, but access must be provided to all but the 
most sensitive data. Changes we would like to see in Federal 
Government, the FGDC, geospatial one-stop and national map are 
good examples of collaborative efforts that State and local 
government partners as equals. However, State and local 
governments are constantly receiving multiple Federal surveys 
about their geospatial data assets and policies. These surveys 
are burdensome and are not coordinated between individual 
Federal agencies. NSGIC will seek Federal assistance to 
implement a more coordinated Web-enabled approach to develop 
and maintain statewide geospatial data assets in real-time. 
These State portals will lead to existing clearinghouse sites 
and into the geospatial one-stop portal. NSGIC requests 
Congress develop and implement a national strategy and policy 
for a business plan and funding mechanisms which support the 
coordinated implementation of the NSDI to support public safety 
agencies.
    Mr. Chairman and members of the subcommittee, I thank you 
for allowing me to testify on this very important issue and 
represent the views of State and, to some extent local 
government.
    Mr. Putnam. Thank you, sir, and thank you very much for 
being respectful of our time restrictions.
    [The prepared statement of Mr. Trobia follows:]
    [GRAPHIC] [TIFF OMITTED] T1647.049
    
    [GRAPHIC] [TIFF OMITTED] T1647.050
    
    [GRAPHIC] [TIFF OMITTED] T1647.051
    
    [GRAPHIC] [TIFF OMITTED] T1647.052
    
    [GRAPHIC] [TIFF OMITTED] T1647.053
    
    [GRAPHIC] [TIFF OMITTED] T1647.054
    
    [GRAPHIC] [TIFF OMITTED] T1647.055
    
    [GRAPHIC] [TIFF OMITTED] T1647.056
    
    [GRAPHIC] [TIFF OMITTED] T1647.057
    
    [GRAPHIC] [TIFF OMITTED] T1647.058
    
    [GRAPHIC] [TIFF OMITTED] T1647.059
    
    [GRAPHIC] [TIFF OMITTED] T1647.060
    
    [GRAPHIC] [TIFF OMITTED] T1647.061
    
    [GRAPHIC] [TIFF OMITTED] T1647.062
    
    [GRAPHIC] [TIFF OMITTED] T1647.063
    
    [GRAPHIC] [TIFF OMITTED] T1647.064
    
    Mr. Putnam. I will next recognize Jack Dangermond. He is 
the founder and president of ESRI, the world's fourth largest 
privately held software company. Founded in 1969 and 
headquartered in Redlands, CA, ESRI is widely recognized as the 
technical and market leader in geographic information systems 
software pioneering innovative solutions for working with 
spatial data on the desk top across the enterprise, in the 
field and on the Web.
    ESRI has the largest GIS software install base in the world 
with more than 1,000,000 users and more than 100,000 
organizations representing government, NGO's, academia and 
industry such as utilities, health care, transportation, 
telecom, homeland security, retail and agriculture. He fostered 
the growth of ESRI from a small research group to an 
organization of 2,700 employees known internationally for GIS 
software development training and services. They now have 16 
subsidiaries and more than 72 distributors worldwide. He also 
has 11 regional offices throughout the United States and 
continues to grow.
    He is the recipient of a number of awards, honorary 
degrees, lectureships and medals. He graduated with a bachelor 
of science in environmental science from Cal Polytech U in 
Pomona, CA. He holds a master of science degree in urban 
planning from the Institute of Technology at the University of 
Minnesota, and a Masters of Science degree in landscape 
architecture from the Graduate School of Design, Harvard where 
he worked in the laboratory for computer graphics and spatial 
design. Welcome to the subcommittee.
    Mr. Dangermond. Thank you, Mr. Chairman, members and staff. 
I want to compliment you and acknowledge you for making 
geospatial information an issue to look into geospatial and 
focus on. I think this is an important hearing and an important 
meeting in time in GIS history. GIS is about to emerge in a new 
way. Historically, people in the early years used GIS for small 
projects such as picking a site or doing a focused 
environmental study. More recently, GIS has been considered an 
information system. It is also moving to the Internet.
    Mr. Chairman, I think that the concept of data bases and 
warehouses of maps is an obsolete idea. Just like information 
systems technology is used for managing financial information 
or for personnel recordkeeping, we now see the need for using 
them to maintain information about geographic things. These are 
living GISs that are transactionally maintained and can view 
spatial information dynamically in the form of maps and images 
about the way things are. They can view the status of our 
environment, the status of our crops, the status of homeland 
security, the status of defense and so on.
    My organization serves many customers in the public, 
private and the educational areas. These users are learning a 
new way about looking at their world, a way that's not beholden 
to just the map but involves technology to look at dynamic 
geographic changes that are occurring in our world. This new 
vision, the notion of dynamically changing maps in a data base 
is important because it affects not only productivity in 
government and we have seen a lot of that, but when connected 
to the Internet facilitates involvement and participation by 
citizens and outside organizations in our government.
    A new kind of civil society is possible through the 
connection of all of these individual GISs to the Internet, 
letting people and schools, citizens, NGO's as well as multi 
tiers of government have access to the information. GIS can be 
used for simple mapping, making maps of where SARS is or where 
AIDS is spreading. GIS can be used for more sophisticated 
things like forecasting crop production, forecasting threats to 
security, forecasting drought, where will I find oil if I 
drill, all private sector sorts of activities and thousands of 
government applications as well.
    In the government, GIS systems create and maintain 
geographic information and then these data sets are used in 
other applications by other agencies or organizations.
    For example, the Federal Government creates, produces, as 
Mark Forman suggested, billions of dollars of data, and States, 
local governments and many of my private sector customers use 
these data sets for very profitable and effective applications. 
The power of a GIS is that it can integrate different layers of 
information from different sources. With the Internet, these 
sources can be in distributed locations. A Federal layer with a 
local layer dynamically overlaid on top of each other can give 
us a whole new view of geographic reality. Public policies that 
affect this new infrastructure vision of GIS on the Internet 
are in several domains, the data domain as you mentioned, Mr. 
Chairman, the management domain and finally the technology 
domain. Organizations like the OGC have been working on 
standards for interoperability of the technology part of the 
infrastructure. This includes getting the vendors together to 
work on interoperability standards. This is a process that is 
working.
    In the area of data, the most expensive part of a GIS, 
there are still some activities to do. The public policies that 
have worked in the data domain are: No. 1, keeping government 
data in the public domain and free. This has promoted 
widespread use and access. No. 2, developing procedures for 
quick and widespread dissemination of this data. This sort of 
works but has some problems. The Internet offers some 
opportunities here. No. 3, working with the private sector to 
create and maintain data in partnerships. That's not working 
very well, but has great potential. Finally, selective 
licensing from the private sector of data for government use. 
The policies that have not worked so well deal with lack of 
coordination of GIS data content specifications. I think these 
are being worked on by the geospatial one-stop group, and I am 
looking forward to lots of success there.
    I also would like to advocate a new notion, a new program 
office, a new planning function, which would actually bring all 
individual data collection and GIS efforts together. This is 
not just another FGDC, but it calls for an architectural plan 
for the infrastructure, the national spatial data 
infrastructure, GIS on the Internet. This would take some time, 
it will take some thinking, it will take some work, but the 
results will be very fruitful. This plan would target 
nationwide data that needs to be collected to organize 
specifications that are interoperable at the data content 
level, develop a contract agreement mechanism that would allow 
participation of States and locals and Federal agencies, as 
well as the private sector, in building and maintaining pieces 
of this infrastructure.
    The conditions must, however, remain that the data, the 
infrastructure be maintained in the public domain. Why? A 
concluding remark. I see geospatial data as social capital. 
It's one of the capital assets of our taxpayers. Geospatial is 
a kind of language that describes the world that we live in. 
This should not be for a fee. Spatial data represents one of 
the most important components of public access to government. 
It characterizes opportunities and constraints, challenges and 
risks. It often allows businesses to search out and discover 
these opportunities and promotes a rich and important civil 
society, citizen participation, education and the like. Thank 
you, Mr. Chairman, and committee members. I'm sorry I spoke a 
little longer than I was supposed to.
    Mr. Putnam. No problem.
    [The prepared statement of Mr. Dangermond follows:]
    [GRAPHIC] [TIFF OMITTED] T1647.065
    
    [GRAPHIC] [TIFF OMITTED] T1647.066
    
    [GRAPHIC] [TIFF OMITTED] T1647.067
    
    Mr. Putnam. Mr. Ritchie, we will now recognize you for your 
testimony. Michael Ritchie was elected in July 2001 as the 
president and chairman of the Board of Directors of the 
Management Association for Private Photogrammetric Surveyors 
[MAPPS], the Nation's oldest and largest trade association of 
private sector geospatial firms. In his professional practice, 
he is president of Photo Science Inc., a full service aerial 
photography surveying mapping and GIS services firm. And he 
graduated from the University of Kentucky 1972 with a B.S. in 
civil engineering. He has more than 25 years of experience in 
his field, and currently holds professional engineering 
registrations in 15 States.
    He is past president of the Kentucky Society of 
Professional Engineers and the Kentucky Consulting Engineers 
Council. In addition, he is a former chairman of the 
professional engineers in private practice a national director 
of the National Society of Professional Engineers. Welcome to 
the subcommittee. You are recognized.
    Mr. Ritchie. Thank you Mr. Chairman and members of the 
subcommittee. We appreciate this opportunity to discuss Federal 
geospatial activities. I will focus on two major topics, 
geospatial one-stop and the organization of mapping in Federal 
agencies. We support geospatial one-stop as a single access 
point for geographic information and believe it could create 
opportunities for the private sector to help government meet 
its geospatial needs, but by omitting access to commercial 
data, geospatial one-stop, as it is currently designed, falls 
short of a goal of one-stop shopping and reduces the ability to 
make informed choices on data needs. We deeply appreciate Mr. 
Cameron's announcement this morning. Allow me to illustrate why 
it is important. Imagine that same Polk County planning 
director in Florida is looking for mapping data for a new 
highway. He goes to geospatial one-stop.gov. Up pops this menu 
that includes a 7 year old USGS digital ortho photo, a 5-year-
old, a 30-meter land site image and a 23-year-old U.S. 
Geological Survey quad map. At present, geospatial one-stop 
will not let that planning director know that more accurate and 
more current commercial data is also available.
    We have heard geospatial one-stop compared to a library 
card catalog or a satellite TV system. Presently it is a card 
catalog that only includes books published by GPO or a TV 
system that only gets PBS. We believe geospatial one-stop can 
help to better organize the government's geospatial activities.
    We commend the Bush administration for this initiative. 
However, it is only a first step. Bold action is needed to 
eliminate waste, duplication and inefficiency in the 
government's geospatial programs. Revising OMB circular A16, 
restructuring the FGDC and creating the NSDI all have one thing 
in common. They treat the symptom rather than the disease. Let 
me explain. MAPPS requests a comprehensive review of Federal 
geospatial activities that is needed to eliminate the waste of 
dollars and inefficiency in government operations. As we have 
already heard in earlier testimony, it is estimated that more 
than 40 Federal agencies have geospatial activities. There is 
no line item for mapping in most agency budgets and 
appropriations. But also, there is no record of how many 
Federal employees work in this area.
    There is no accounting of the capital investment made in 
plant or equipment. There is no accurate data on the amount of 
mapping performed in-house or by contract.
    Interagency and intergovernmental coordination needs 
improvement. There is considerable duplication, little sharing 
of data and more to be done in standards for interoperability. 
Most Federal agency performance of in-house mapping is more 
expensive and less efficient than that in the private sector, 
and there is no uniform application of government's 
longstanding policy that it will not compete with the private 
sector. The Federal Government has warehouses, some the size of 
football fields, full of these paper maps as alluded to 
earlier. They are out of date. Too many were printed. While the 
world has moved to digital mapping, and print on demand, the 
government is still spending money warehousing maps it will 
never use, sell or even give away.
    Federal agencies provide grants to State, local and foreign 
governments to perform mapping that could be performed by the 
private sector, as well as grants to universities for work that 
is commercially available or for research on methods already 
implemented in the marketplace. We're encouraged by two recent 
developments, the Tenet memo and the White House Policy on 
Commercial Remote Sensing. We support expanding the Remote 
Sensing Policy to include airborne as well as space borne data 
and imagery.
    There are also two ominous clouds looming on the horizon 
that deserve attention. First is the dislocation being created 
by States with regard to licensing of photogrammetrists and 
other geospatial practitioners. The current policy of the State 
licensing board in Florida, and the manner in which several 
States are enacting policy or legislation, threatens true 
interstate commerce in our field, thus making it an issue of 
Federal interest.
    Additionally, offshore subcontracting of geospatial work 
harms U.S. workers and impacts domestic firms, especially small 
business. Given that mapping is location information about our 
critical infrastructure, sending this work offshore is also a 
threat to homeland security. We urge Congress to close the 
loophole in the Service Contract Act that permits this on 
Federal contracts and review offshore subcontracting of 
nonFederal work.
    Mr. Chairman, studies on coordination of Federal activities 
and government competition in mapping date back to 1933. The 
time for action is long overdue. We sincerely hope this hearing 
will prompt that action.
    We commend you for your interest and leadership, and we 
stand ready to work with Congress and the administration to 
better serve the Nation's geospatial needs and economic 
development resource management, environmental protection, 
infrastructure and homeland security.
    Thank you, Mr. Chairman and members of the committee.
    Mr. Putnam. Thank you, Mr. Ritchie. You really tipped 
around the big issues, didn't you?
    Mr. Ritchie. The emperor finally has on clothes, sir.
    [The prepared statement of Mr. Ritchie follows:]
    [GRAPHIC] [TIFF OMITTED] T1647.068
    
    [GRAPHIC] [TIFF OMITTED] T1647.069
    
    [GRAPHIC] [TIFF OMITTED] T1647.070
    
    [GRAPHIC] [TIFF OMITTED] T1647.071
    
    [GRAPHIC] [TIFF OMITTED] T1647.072
    
    Mr. Putnam. Before we get into questions, all of you had an 
opportunity to hear the first Panel, and I would like to open 
by recognizing each of you to take a minute if you wish, and 
offer your observations on the key themes that came up in the 
first panel, and we begin with you, Ms. Kalweit.
    Ms. Kalweit. Thank you, sir, for this opportunity.
    I think it was stressed in the last panel the importance of 
partnerships--State, local, Federal partnerships to building 
capacity. And, from a standpoint of the Interagency Geospatial 
Preparedness Team with its focus of underpinning our Nation's 
preparedness with a geospatial framework, I also can't 
emphasize enough how important the issue of partnership and 
interoperability and access to the data are.
    As I've described, both in my written and oral testimony, 
all hazards happen everywhere and anywhere. We can't 
necessarily expect or anticipate them, but those who have to 
respond, and those who have to plan to mitigate against, need 
the data wherever they may be, and the way to get it is through 
partnerships.
    Thank you.
    Mr. Putnam. Mr. Trobia.
    Mr. Trobia. Thank you, Mr. Chairman.
    I guess one thing I'd really like to focus on is having a 
lot of experience in county government and setting up a county 
GIS. What you have is a situation where counties and cities, 
larger counties and cities that could afford it, have set up 
these GIS systems all over the place, and they're doing it all 
the time, and Mr. Dangermond said the data is very 
transactionally based. Paper maps just don't do it. Parcels are 
changing hands all the time. Permits are being issued, etc. It 
needs to be electronic, so this transactual basis is forcing 
local government to really utilize BIS technology. It's 
happening in Tucson. It's happening in Minneapolis. It's 
happening in Tallahassee.
    Well, the trouble is that you've got all these folks doing 
it for their own business needs. Now, what we're saying is with 
homeland security, first responders, etc., that there's more 
than ever a need to standardize data and get it to flow within 
a network. If this is going to happen, it needs to be a win-win 
situation for Federal and local government, and there needs to 
be incentives that would encourage that data to flow upward.
    Thank you.
    Mr. Putnam. Mr. Dangermond.
    Mr. Dangermond. Yes. I'm very fond of the work that is 
going on in the geospatial portal activity. I think it's the 
right thing. I'd like to share with you a vision or a metaphor 
for what I think is the underpinning of what will happen in the 
next 5 to 10 years. I see the fusion of GIS and the Internet as 
developing into a kind of nervous system, like you have in your 
body. The nervous system sends information to our brain, our 
consciousness, and is constantly measuring change in 
temperature and how we feel. Our Nation needs such a system. It 
will not be done holistically by the Federal Government. It 
will be multiparticipant, where little pieces of things are 
measured, that will be measuring the change, the changes in 
land records or vegetation or water or in the environment, and 
those changes will be served into the Internet and viewed, 
analyzed, reported on like an accounting system, except this 
kind of accounting system will measure and account for all the 
things that most people really care about, a kind of geographic 
accounting system. And this will demand--this national spatial 
data infrastructure system will require or demand 
multiparticipant formulas. This is a big piece that is missing, 
the management vision of building that infrastructure. No one 
really had the management vision to build the Internet. It just 
sort of evolved into place. We didn't vote for it, but in this 
case we do need to take a little bit more caution, because it's 
more than just technology. It's the base way that organizing 
the science of measurement and serving it up and integrating it 
in the form of applications that can serve people from homeland 
security to farming.
    So I like what they are doing, but I think it needs a 
larger context and a larger vision and a larger leadership 
position. Because our government agencies are so fractured and 
while they collaborate, it is almost like an unnatural act at 
all levels of government, we need something that can tie them 
together, and I think geography is a logical metaphor for that, 
and geographic information, which reflects the actual practices 
of what governing people do, how they organize their thinking, 
how they organize their policies. It is a very natural way to 
bring our Nation together at all levels, and also to connect 
our citizens through its visualization and framework.
    So I liked what they are working on, but I just think that 
you and your committee should begin to think about how we 
accelerate that into a kind of societal GIS, a GIS which is 
open for everyone, that brings conscious to all of us, like our 
nervous system does. Thank you.
    Mr. Putnam. Thank you. Mr. Ritchie.
    Mr. Ritchie. Jack, I think you hit on a number of the good 
points of the committee in earlier testimony. I think one big 
difference is the emphasis that Gene alluded to, and others, of 
emphasis on local coordination. I think that it is paramount, 
promoting partnerships of this data and really involves 
changing the committee structure to be heavily favored toward 
local are all very, very good items. Stepping up and putting a 
framework in place for some leadership, trying to develop some 
standards, those are all the right things to do, but quite 
honestly, we're falling a little bit short, because where is 
the stick? In my years of practice--and let's talk about recent 
events--if you look at 43 of our 50 States are running deficits 
right now, but yet local government, as tight as the economy 
is, are finding a way to buy and procure GIS data and GIS 
systems. They find a way, even in the toughest of times, 
because they are highly motivated to cooperate. They go to 
church together. They see each other in the grocery line. 
They're on the softball field in the schools, the PTA, etc. 
They already have a common goal that breaks down a lot of the 
barriers that sometimes protrudes when we get into the State 
and Federal Government.
    For example, when the Federal Government creates geospatial 
one-stop, and once a local county that is involved, millions of 
dollars over the recent 10 or 15 years, what's their incentive 
to hand over that data, particularly when, in a lot of cases, 
they've copyrighted that data and charged for it? What is the 
incentive for them to turn that over to the Federal Government? 
To be nice guys? To be cooperative? Where is the carrot? Where 
is the stick? You really have to have a larger leadership role, 
and I think also because of the evolving changing technology, 
which some other testimony has supported, we've got to get a 
longer-term, bigger vision.
    The Federal Government is spending billions, not millions, 
in this industry on GIS, on information and on data. Ms. Watson 
referred to this morning about the On-Star System. I assure you 
that is not backed by a government map system. Private 
enterprise finds a way to make it happen.
    A recent example, in our own community, we update a utility 
map annually in a very growth-oriented community. We had one of 
the technicians working on that map that actually had bought a 
house and moved into it. On the date we took the photography 
that wasn't even on the imagery, and yet she could order a 
pizza and get it delivered using the GIS.
    So private enterprise is there. We need incentive to marry 
these up, because the private enterprise is thinking, as Jack 
said in his case, coming from the private sector, is thinking 
of the next turn of the wheel and the vision of where we're 
going. But quite honestly, we need to get a handle on how much 
money is being spent. We probably don't even need additional 
money. We just need it to be harnessed and redirected with a 
better focus and vision, because we're spending billions, and 
we see it as private procurers of Federal services. We work for 
agencies. In the event of a flood, we get calls from five or 
six agencies that we have contracts with wanting us to go fly 
it, and it takes 4 or 5 days, and sometimes we just have to 
make a decision to go fly it and then have it in the can when 
the dust settles down a week later and the water is receded, we 
just happen to have the data, otherwise we couldn't wait for a 
decision.
    So although a lot of what is said has been very, very good 
and very, very favorable, we need a super-charged leader with a 
bigger vision to really pull this off, and we need incentive. I 
think Mrs. Miller hit it, and it probably comes from her own 
background experience in working with the local government. I 
think this very definitely has to be from the bottom up rather 
than the top down. If it's from a top-down decision, the 
Federal Government is going to have to show up with, here's 
your incentive to do it our way according to our standards if 
we're going to pay for it. Anything short of that, they're not 
going to do it, because they barely have money to do it through 
their own standards. They're not going to invest the extra 20 
or 30 percent to put it in a dataset or standard or even pay 
for the metadata to put it on geospatial one-stop.
    Thank you.
    Mr. Putnam. That is an interesting set of observations, and 
we appreciate that, and I'll recognize Mrs. Miller to begin our 
questions.
    Mrs. Miller. I suppose that we talk about incentivizing, 
particularly local governments as you're well aware I'm sure 
with a civil engineering background you do a lot of that. 
Perhaps there's a mix to incentivize them properly of money and 
legislation, I think perhaps as well. I guess that might be my 
question to all of you. I think cooperation, obviously, is the 
operative phrase. I mean, we've got to cooperate. Mr. Trobia 
mentioned that it would be optimal, of course, to have 50 
points of contact nationwide as opposed to--and I forget the 
number you used. I think it was 30-some thousand. I don't know 
how many local municipalities there are nationwide, but as you 
look at how you--again, how you construct the--all of these 
different mapping systems, are all of you and even Mr. 
Dangermond, who is sort of advocating a new structure for 
cooperation and coordination, when you're advocating that kind 
of a structure, are you all advocating legislation? What is 
really the proper role of the Federal Government? What do we 
need to do? And perhaps some of it is monetary, but is there 
legislation that is really required for us as we try to get 
ahead of the curve of this whole thing of making sure that we 
are setting standards, that we do have a point of contact that 
makes sense, that we're not having a lot of redundancy with all 
the different layers and all the municipalities, in the private 
sector as well all trying to grab the same information and then 
we're not really sharing it to the best benefit of the citizens 
of our Nation? Sort of an open-ended question but where do we 
go with this? This is a fascinating subject. It still, as much 
as all of you--much of you live it, so you're much more 
familiar with it than I am, but you can see how fantastic the 
opportunity is here, and it is still sort of a new concept, how 
do we get ahead of it?
    Mr. Dangermond. If I could, Mr. Chairman, I have two views. 
One is the library view. There are perhaps hundreds of 
thousands of digital map layers that exist in the United 
States. They need to be cataloged and put into a library 
catalog for searching, and they need to be mounted on the 
Internet so that people can get them or get the services that 
they offer. That's one view.
    The other view is something called framework that the FGDC 
conceived of and has been working on, the idea that there would 
be a kind of standard map for the entire Nation. It isn't this 
scale for this and that scale for that. And the concept of a 
national map of framework layers that covered the whole Nation 
is what I want to address in response to your question.
    To carry that out, we need a couple of things. One, we need 
the content standards. It has taken us 10 years to get just 
draft standards which are to be published in September. This 
took too long. This should have been done in 10 weeks, not 10 
years, and has irritated the entire community about the Federal 
Government's initiative here.
    Under this administration, things are going much faster, 
and I like that.
    The second thing that is necessary is some kind of 
partnership program that says, I can do that map sheet--let's 
use it from a mapping perspective. I'll capture and maintain 
the map sheet of Redlands, CA. That will be my contribution to 
the national NSDI, and by the way, I'll do it, but could you 
give me 10 cents on the dollar to do it? Why am I saying this? 
Because for me in Redlands, I really need that map sheet done 
to run my government, and by the way, the reason why GIS is 
still growing, even in the context of a down economy, is 
because GIS really saves money. It helps local governments make 
better decisions, and it allows people to communicate better.
    So I'm willing to put in the 90 cents on the dollar to 
build my tile of the mosaic because it helps me locally. If you 
just give me a little incentive, I'll do it according to your 
standards. So I will standardize and by the way, give you the 
data, put it into the public domain so that the freedom of 
information laws and so forth are protected, citizen right to 
know, access to government records, all of that is maintained, 
for just a little bit of financial incentives.
    This kind of leverage was done very successfully in the 
Surface Mine Act of 1977, where a grant was given to the States 
to build GIS data bases. This is one of the origins of GIS, and 
in fact, with just a little bit of match money. And then the 
States took it on themselves to build these magnificent 
systems.
    So this framework is necessary, and I think block grants 
are very valuable. In the Surface Mine Act, the block grants 
were a lot of money up front. We will subsidize you a 100 
percent year 1, 60 percent year 2, 40 percent year 3, and the 
feds worked their way up. Meanwhile, this huge information 
infrastructure was left in place and the States took over the 
responsibility of maintaining it and publishing it, and it was 
done according to the standards of the Federal Government, a 
perfect example of what I'm talking about.
    If we thought about such a program for the NSDI, with the 
national, State, and local government cooperation, perfect, and 
how does the private sector fit into it? They are contractors 
to build it, or perhaps they could be participants building 
some of the tiles where they could actually build it and resell 
it to some of their other customers. I'm not sure how that 
would work. I know how the first model works, but the second 
one is a little bit unclear and need to be worked out.
    Mr. Ritchie. I'd like to hitchhike on a couple of things 
that Jack said there. One, on this idea of a national map, I 
know we in private enterprise have debated that substantially. 
We had our USGS quad sheets. We have our national digital ortho 
photo quarter quads. Setting those to a single scale and 
standard, we think, is a little bit naive.
    For example, you need more resolution near the World Trade 
Center on September 11, 2001 than you do in the corn fields of 
Kansas. Setting the same scale with the same resolution is two 
different needs. They're two different situations. Why not rely 
on what the local community has determined is their needs? I 
assure you there is much better data and much more need and 
much more revenue-generating tax bases in lower Manhattan to 
pay for higher quality data than you do in the urban or rural 
areas of central Kansas. So my point being, one size fits all 
doesn't necessarily work in our environment, particularly in 
the bottom up series. We need certain information. Why not get 
it at the best available resolution? We go on the Internet, to 
search engines, for information. Why shouldn't we be able to go 
out there and find any type of data, wherever it is? It's not 
necessarily endorsing it. It's just saying it is there. It's 
let the buyer beware. Go find it, research it. Look at the 
metadata, and yes, at cost. We'll determine if it costs too 
much for your need or if you now need a partner to go share it 
with. So you do it together, but it is an engine. It is 
running. It helps fuel our economy.
    The coordination can probably be achieved on this greater 
vision we're talking about administratively rather than 
legislatively. If we look at geographic information as being 
like any other part of our infrastructure, you can almost set 
it up like a Federal highway program, and through the gas tax 
you fuel it, you regenerate it. It is a renewable resource. We 
create this information, this network, this nervous system that 
Jack referred to, and it's going to be continuous, and it's 
going to evolve. And if we become better doctors, we're going 
to learn how to interpret the data better so that we become a 
better society, a more informed society, and we can respond 
before rather than after.
    Ms. Kalweit. And I'd like to comment on the issue of 
incentives. First the three premises that are coming across, 
particularly from the first panel, and also here in the 
discussion, are the issue of interoperability through 
standards; the need for partnerships to create capacity; and 
the idea of buy once, use many.
    In the May issue of Harvard Business Review, there was an 
article on IT--on the IT infrastructure. In many respects, you 
can read that article and see a commonality with the geospatial 
infrastructure. The premise of that article had to do with 
looking at the power grid as it first evolved, and the rail 
transportation system as it first evolved. What it said was 
what made these a public good, what made those things able to 
be plug-in, ride was interoperability, through standards. And 
what that has driven is for the cost of those infrastructures 
to go down. It went on to talk about IT and the IT 
infrastructure that we have today and the fact that information 
technology, quite frankly, today is a commodity item. It's not 
something that businesses use to get that extra advantage as 
they did in the early 1990's. Because it is a commodity item, 
costs have been driven down.
    If we liken that to geospatial where geospatial 
information, geospatial data becomes ubiquitous, it becomes a 
commodity item. What happens then is the private sector is able 
to leverage that and build the kinds of value-added services 
and provide value-added products that in the public sector 
we're looking for in terms of government support to citizens 
and government to government operations.
    I gave some examples in public safety and homeland 
security. Those are all about value-added services using the 
data. You've got to have the data. So, again, I would encourage 
interoperability through standards, partnerships, buy once and 
use many to build the infrastructure as a commodity item so 
that we can get and leverage what is really valuable about this 
infrastructure, and that is the value-added services.
    Thank you.
    Mr. Trobia. Thank you. I'd just like to add a couple of 
other things to what I'm hearing, and I would say from the 
State perspective. I like the idea of block grants. NSGIC has 
put together a coordination model for State organizations, 
identifying the roles of States in geospatial coordination? 
That paper states that if States are going to coordinate with 
the Federal Government and with locals, then these are the 
things that would make us successful and these are the things 
you can expect from State. That's No. 1. That's part of the 
written testimony I submitted. No. 2, NSGIC also got involved 
with Al Leidner, who was the GIS manager for New York City 
after September 11, regarding some of the lessons learned 
there. We put a white paper together and it's been signed off 
by a number of States and other professional associations. The 
concept of the white paper really gets at homeland security 
issues.
    If cops on the beat can find bad guys, that's good for 
homeland security. It's a local issue. If fire departments can 
get the route to a fire and know where the hazardous materials 
are quickly, that's good for them at local level, and it's good 
for homeland security. If health departments can track 
incidences of disease, that's good locally and for homeland 
security, etc.
    There needs to be robust GIS at the local level, because 
the data is highly transactual. America is moving too quickly 
to rely on paper products. We need to bring good data together 
through the network. Block grants and developing standards are 
a way to do that.
    The other question that was asked was what are the 
incentives: legislation or funding? I'm not just talking about 
funding. I agree with the comment that was said earlier. If you 
look at the amount of money that is being spent on geospatial 
activities, if some of that money is redirected, it would 
probably go a long ways toward accomplishing the things that 
we're talking about. So it becomes a leadership issue. That 
gets at my last point, regarding legislation versus not 
legislation. I commend the FGDC for doing the things it's done. 
I do think that they have involved local communities for the 
long run in a consensual way. So what is it going to take for 
the FGDC or geospatial one-stop, or whatever this migrates 
into, to have the longevity so that geospatial data turns into 
a national asset? Because it is really an infrastructure that 
helps America in a lot of ways. That may require legislation, 
but so far I don't see that Congress has been involved that 
much. So whatever Congress can do to support these initiatives, 
whether it's new legislation, or finding a home for where this 
can happen, or providing a significant carrot and stick, those 
are the leadership things that Congress may be able to provide. 
Thank you.
    Mrs. Miller. I have no further questions, Mr. Chairman.
    Mr. Putnam. Thank you, Mrs. Miller, for your insightful 
questions, and let me followup on the funding question. Mr. 
Forman, indicated that there may be up to 50 percent of the 
funds spent on geospatial wasted, and so there's clearly room 
for some savings.
    What's your recommendation for improving our return on 
investment on the Federal money being spent on the systems and 
the data? We'll begin with Mr. Ritchie.
    Mr. Ritchie. Thank you, Mr. Chairman. I think one of the 
best pieces of advice I would say is that technology is ever 
changing, and I would highly encourage the government to do 
some of the things that the FGDC has done, and that is setting 
some data standards, that data is what it's all about. You 
create the data. It evolves, changes and lasts a lifetime. 
That's your point of reference. You're going to get new PCs. 
You're going to get new hardware. You're going to get new 
versions of software. You're going to get increased capability, 
but once you start out with a base map, a base set of data base 
in a GIS, that evolves years and years and years over time. The 
local community has transactions every time there's a property 
transfer, every time there is a building demolished, every time 
there is a new subdivision added. The data is where I would 
highly encourage you to put your money so that it isn't wasted, 
and, ironically, most of that data is generated locally, not 
federally. The Federal Government has issues with the built 
infrastructure, our Defense Department, etc. But generally 
speaking in our 50 States, it is the State and local 
governments that are producing this data.
    Mr. Putnam. Let me followup on that. Everyone is in 
agreement, and the data backs up the fact that State and local 
governments are generating the vast majority--two-thirds, I 
believe, is what the first panel said. Are they the leaders on 
this, because the needs and the uses and applications of that 
data are inherently local? Or are they doing it because the 
Federal Government is just not any good at it?
    Mr. Ritchie. I think they're doing it out of a need. It's 
sort of like, why did we eventually stop using our typewriters 
and go to word processing? Why did we go to scanning systems? 
As some of the others have said, it is a tool. We find that it 
really in the long haul doesn't cost. It pays. It's a valuable 
decisionmaker. In fact, it's probably one of the more open, 
trusted open records processes. People will trust the data that 
they get out of a computer, out of a system. And it's open, and 
it's open to public scrutiny and public view, public 
information, so to speak, and open records.
    I think one of the biggest issues is that local communities 
have been doing it out of necessity. Generally, they have been 
doing it not just to create a GIS, but they had a storm-water 
problem. They had a neighborhood sewer problem. They had a 
school bus routing problem, they had some other issue, and the 
GIS was an ad hoc tool that helped them achieve that goal. And 
that helped them--or you have, as we said many times, 
consortiums where local agencies, city, county governments 
working together with airport boards, with water utilities. In 
some cases, these are privately run utilities that invest into 
that base layer, that base mapping set of data.
    I think what's happened is the Federal Government hasn't 
had the money and hasn't had the standards and hasn't had the 
engine behind the motivation for the cities and counties and 
the States. The technology is there, so they have all been 
solving their own problems when they didn't have the governance 
and the money behind the Federal Government. If the Federal 
Government had shown up with the standards and the money to, 
say, start a series of block grants, if you go back 10, 15, 20 
years ago, the State of North Carolina envisioned a statewide 
land records modernization program, land information system. It 
was good economic development. They had tax roll problems. They 
couldn't fund doing the whole State in 1 year. So they put up 
$5 million. Every city there had to then compete for that pool 
of $5 million. Well, guess what happens? The larger cities with 
the biggest problems won it first. Then they got their city's 
maps. Well, then they're off the rolls. Guess what happened? 
The second greatest needs competed for that pot the next year 
and pretty soon the whole State is mapped and they're mapped to 
a set of standards all across the State and North Carolina is 
probably one of the premiere States of doing that. That mold 
could be followed by the Federal Government like we're talking 
about, putting some money to the State and locals, but you have 
to get them some incentive to adopt your standards and your 
data, and it's the data that is imperative, as Sue mentioned, 
in the event of emergencies and September 11-type disasters, 
you need immediate access. So you need some standards for that 
data, so you can get it in the hands of the first responders 
and those who have a need to know.
    Mr. Putnam. Mr. Dangermond.
    Mr. Dangermond. Mr. Chairman, I disagree with Mark's 
assessment that we have 50 percent wasted data collection. I 
have seen some mistakes made that were poor mistakes, and yes, 
those things happen. But, first, I'd like you to understand 
that data collected at a local level for a mandated activity at 
the local level and a local government GIS is often not useful 
to serve the national government's need, or vise versa.
    Take, for example, a very detailed engineering topographic 
map. It may not be the data set in its current form that is 
necessary to build a topographic map of 24,000 scale, and it's 
not simply a matter of changing the scale. The data grain is 
not appropriate for that.
    So I imagine that there's going to be many scales of 
geographic information systems. These different information 
systems will respond to different needs, and utilities and 
local government and State government and in response to 
Federal mandates. The Federal Government has a GIS in just 
about every department. BLM uses it for the public land survey. 
It's a different system and a different level of grain of 
detail than what is maintained in a local government. USGS for 
the topo, census for geographics, and so on. Some of these data 
sets that are collected at the Federal level are useful at the 
State level and useful at the local level. Some. Especially 
when you apply the overlay method, but one does not redundantly 
do the others data collection. OK, there are some examples 
between States and Feds, particularly where there is more 
redundancy activity going on.
    So I don't entirely agree that there's huge wasting going 
on, but I do believe that more collaboration could occur.
    My second point here is the big waste is not leveraging 
what we have. You know, there's stove pipes of data that are 
separated and not involved, and those will help here, the 
geospatial one-stop, because it will let people know that 
there's a big library out there. There's a whole library out 
there that you can go and see and view and use information 
about, and the vision also starts to allow for publishing, I 
need this data, anybody else need any data, like that? Or is 
there any data like this for my little location? That's it, 
portal responsibility of searching and also I need this, and 
then other people will say, I also need it. By the way, I have 
50 cents, you have 50 cents. Let's get together, that kind of 
Internet bartering, I think, will naturally emerge as an 
institution, but it does require, I think, more investment in 
that and more coordination.
    Mr. Putnam. Ms. Kalweit, the NIMA by definition is focused 
on national security issues. You have, as a detailee to FEMA, 
been made aware of civilian uses of data and the needs on the 
geospatial side. Obviously, if we had this hearing 3 or 4 years 
ago, prior to September 11th, we'd be spending a whole lot more 
time talking about earthquakes and forest fires and floods than 
we have about homeland security. Do you believe that there is 
an adequate process in place to bring appropriate data into the 
civilian realm on a timely basis?
    Ms. Kalweit. Sir, the short answer to that is the civilian 
community has been using the national capabilities for a long 
time to support what you described we would be talking about 
had September 11th not happened, and that's through the Civil 
Applications Committee. So there is and are processes in place 
for the civil community to leverage the national assets, and 
there are specific policies that need to be followed in order 
to protect the citizens of the United States period.
    The other thing that I would also like to mention is again 
to show that the civil community for a number of years has been 
able to leverage the national capabilities, for example the 
support that NIMA has provided to FEMA since Hurricane Andrew 
in support of disaster response.
    So, again, I would say that the processes are in place.
    Mr. Putnam. Well, for example, in your handout, these maps, 
some of them are generated by NIMA. For example, the lighting 
ceremony on September 11th, the Maryland tornado damage, was 
that a NIMA map?
    Ms. Kalweit. No, sir. The Maryland tornado damage was 
commercial imagery that the State of Maryland collected for 
that particular incident.
    I would also like to just say that the data that you see 
here, for the lighting ceremony, is also a combination of State 
data--or city data and data that the Secret Service had for 
that particular ceremony.
    In this case, the national assets that are being used are 
the analytic assets for a national security objective, which is 
the mission of NIMA to support national security objectives. 
We've been able to use our skills and expertise that we apply 
in the foreign arena to support Federal agencies in the 
national homeland security mission.
    Mr. Putnam. Well, the map, for example, of lower Manhattan 
has a seal on the bottom of it, city of New York emergency 
mapping and data center, Rudy Giuliani, mayor. So presumably 
that data was generated by the local government; is that 
correct?
    Ms. Kalweit. Absolutely. And in fact the city of New York 
prior to September 11th--for years prior to September 11th, had 
been involved in a very robust mapping program to establish the 
New York City base map. Al Leidner, who has been responsible 
for that New York City base map, has publicly stated that 
although the tragedy in New York City on September 11th was 
horrendous, in some ways, thank God it happened in New York 
City, because they had the base map information to support the 
response and recovery efforts. So, in fact, to a large extent, 
their data is very robust for many purposes, although, there is 
still work left to be done.
    Mr. Putnam. So is it fair to say that in general the major 
cities of this country are ahead of the Federal Government in 
their GIS systems or States? We've heard about the North 
Carolina system. We've seen the New York system. Then we go on 
the Internet and look at a NOAA map, and it's 9 years old. So 
is it fair to say that State and local governments are way 
ahead of the Feds on this, or is that not the case?
    Ms. Kalweit. Sir, I'd like to emphasize that, in some 
cases, you're comparing apples to oranges. While the data in 
New York City, for instance, is very robust for New York City, 
it's really only the USGS that has coast to coast border 
coverage for any kind of mapping data across the United States. 
So if you really wanted to create a map of large regions or of 
the entire United States, you'd have to go to Federal sources, 
because you couldn't do a patchwork quilt of all the State and 
local governments. Quite frankly, this is a patchwork quilt, 
where some States are very robust, some cities are very robust, 
some counties as well, but there are vast--what we've 
discovered in the IGPT, there are vast inequalities.
    So, again, I'd just emphasize it depends on what resolution 
you're interested in viewing the data, and in many cases, some 
data, no matter how old, is better to have than no data at all.
    Mr. Putnam. For instance, there's a disaster in Maryland--a 
tornado. The State of Maryland gets a commercial person to fly 
over and give them the aerial photography they need. There's a 
disaster in New York City, the city of New York goes to their 
own system to retrieve the information they need. So what 
category of information is uniquely Federal? What would occur 
that you would need border to border maps of the United States 
that we could then categorize as being a unique Federal 
geospatial responsibility versus State, versus municipal?
    Ms. Kalweit. Sir, I haven't really studied that problem to 
any large extent, but I would state this, that the reason why 
USGS has the border-to-border, coast-to-coast coverage of the 
United States has a lot to do with the environmental issues 
that they are addressing, where you're following watersheds 
that cross regional boundaries and things like that, and so you 
really need the full expanse of that data.
    Mr. Putnam. Mr. Trobia.
    Mr. Trobia. Thank you, Mr. Chairman.
    It really depends on the business case of the problem that 
you're addressing. For instance, during the World Series when 
we wanted to find out where all the manhole covers were when 
the game was held in Phoenix, the best source of information 
was the city of Phoenix. I could look at detailed digital 
aerial photography that the city of Phoenix had. That is by far 
the best data that I could get.
    Last year, however, Arizona suffered the Rodeo and Chedeski 
fires. I happened to be flying east and I saw the plume from 
that fire. I could see a distinct plume come across Arizona, 
New Mexico, the Panhandle of Texas and dissipate in Missouri. 
It was such a large fire. There we were using USGS geospatial 
products. We, at the State, had put together the digital ortho 
quarter quads. They aren't 6-inch pixels. They're 1-meter 
pixels of imagery for the whole State. They can be a couple of 
years old, but if we can take the DOQQS as a base, we can 
overlay county data, where that existed or other Federal, 
Forest Service, USGS or BLM data or State data. That's where 
you can start--that's where the Federal Government can help 
with the standards in putting these things together over larger 
areas that cover multiple municipalities or multiple counties, 
especially in large-scale natural disasters.
    Mr. Putnam. Does that create a basis for beginning to 
develop some guidelines for what the priorities of Federal 
geospatial information gathering would be versus State and 
local?
    Mr. Trobia. I hear Jack wanting to jump in, but, yes, in my 
opinion, yes. The Federal Government should develop the 
guidelines. The traditional way of the Federal Government 
making the paper maps and doing everything themselves is just 
not cost-effective and doesn't meet the business need of what 
is on the ground. Develop the standard, but then let the data 
be developed where the events are happening, locally where 
those business needs are really happening.
    Mr. Putnam. Mr. Dangermond.
    Mr. Dangermond. Mr. Chairman, I think it's fair to say that 
there are many GISs at the Federal level that respond to 
various mandates. One such system is the Public Land Survey GIS 
at BLM. It has a layer of information that it maintains, and so 
when somebody wants to lease or buy or sell Federal lands, a 
transaction is done on that information system, and it updates 
the map of Federal land ownership and status. And then there is 
another one which is the USGS topo map, and when they do a new 
survey, a new map sheet is created. Think of it as a 
transaction on the data base of the national map. The same is 
done with the census that happens every 10 years. There's a 
transaction on the census. The oceans by NOAA, FEMA with 
hazards, and EPA has a mandate to collect and maintain 
environmental data on every pollution site, and Housing and 
health with CDC. Each of these are separate GISs.
    So, Mr. Chairman, there's many GISs at the Federal level, 
and then there's many GISs at the State and local level. And 
what the connections are, it's not all one system, because each 
of these separate systems has its own business needs and 
information reports that are necessary to get from it. Take 
EPA. The Congress mandates that they generate certain reports 
out of this GIS system about the environment. So it's not just 
about maps. It's not just about local maps. It's about 
geographic information, and maps are a kind of way to view that 
changing information that's happening all the time.
    We need, actually, Mr. Chairman, a design for a ``national 
GIS'' which would bring together all of these individual 
systems. In business computing, they call this enterprise 
systems. You know, instead of having every department have 
their own accounting system, they say let's have one business 
accounting system for the whole corporation, enterprise 
computing or enterprise approaches.
    We need, actually, for our Nation at the national level, a 
kind of enterprise vision for realizing such a system rather 
than the kind of bottom-up approach everybody does their own 
thing with some tools and data. We need a top-down 
architectural vision.
    The Internet allows us some of the technical components to 
bring it into being. The policies for data sharing that we've 
been talking about are ways to implement some of the pieces of 
this enterprise vision, the nervous system, and certainly such 
a system should involve State and local transactions, as well 
as the national transactions, and certainly the private sector, 
where appropriate, to realize that. But that kind of visioning 
work needs to be done by an architect. Architects designed this 
magnificent building that we're in. That required a blueprint. 
Somebody just didn't show up with some 2 X 4s and panels and 
throw it together. No. They thought about it. And this is 
something I think, at this particular moment in our history, 
what we need to do is sit back and say, what is the overall 
architecture? And it will change. It will evolve.
    Mr. Putnam. Is it your sense then that the plan outlined by 
panel one, while it lays out steps, does not lay out a vision?
    Mr. Dangermond. It has a major building block in the 
overall vision, and that was, and is, a significant one. The 
card catalog in a library was the kind of key that brought the 
whole concept of a library together. What they've done at GOS 
is similar and very significant. I think it will drive other 
parts of the architecture. But I would like, if I were in 
charge, I would certainly want an overall architecture to 
realize this national GIS in all of its parts. That will 
require leadership in many things will. But I would not go as 
far as to say that GOS is out of context, because I think it 
envisions a larger architecture. It's a key building block that 
can go forth on its own, but we need also to fill the other 
parts, and those show up in little statements that all of us 
have been talking about. We need the standard data 
classifications. We need the partnerships for who's going to 
play. We need the various protocols and so on. Those are all 
pieces of the overall vision, but it would be nice to have that 
overall architecture so we wouldn't have to explain it in the 
bits and pieces bottom up every time somebody asks a question.
    Thank you, Mr. Chairman.
    Mr. Putnam. Thank you.
    Mr. Ritchie. Mr. Chairman, I think hitchhiking on some of 
the things that Jack referred to, this bigger vision, if you 
really look--and going back to Mark's statement that maybe 50 
percent is wasted, I guess that is a number that could be 
debated, because in my own testimony I said I know our 
organization has been trying to figure out how much the Federal 
Government spends, and we can't do it. It's just not cataloged 
or coded that way. So therein is one of the problems.
    But I think, legislatively, if you look at the stove pipes 
that we've referred to organizationally, the Federal Government 
is built around stove pipes. We've legislated them. FEMA 
responds to disasters. That's their mission. They map. They 
create the GIS that supports that mission, and only if they're 
locally involved with some other agency--and it's getting 
better, but what I'm getting at is legislatively FEMA is out 
doing their job. The Corps of Engineers is out supporting the 
Air Force to build a new dining hall. They are only going to do 
topo and map just that area to those standards to get the 
mission done, which is get the dining hall built on a base.
    The Navy is looking at the naval shipyards, etc. So we've 
got all of our entities, our Federal agencies, the BLM, NOAA. 
They've all got their needs for GIS, and they are focusing on 
their needs. The spirit of cooperation is getting better, but I 
think what Jack is saying is, we don't have a head coach here, 
we don't have someone--we don't have the master architect. 
We've got a lot of----
    Mr. Putnam. The Department of Interior doesn't do it for 
you?
    Mr. Ritchie. Well, the Department of Interior has its 
mission, and what is the stick for the Department of Interior, 
Mr. Chairman?
    Mr. Putnam. So who should be the coach? Where should that 
position reside?
    Mr. Ritchie. OMB probably has the money, as Office of 
Management and Budget, it's a management issue, and it's a 
layer above all of these other agencies. And it's the one that 
can set the issue, the standards and mandate it. You know, what 
is the stick today if someone--and I would dare say there's not 
even intentional violations. There's nonintentional violations 
of OMB circulars, because it's sort of secondary, and 
participating in geospatial one-stop is sort of voluntary. 
Where is the stick if I don't make my data available? Where is 
the stick if I don't exactly follow the FGDC standards?
    Mr. Putnam. I don't think your business ought to ignore 
some IRS circular. There could be a stick there.
    Mr. Ritchie. Yeah. But I guess my point being, like Jack 
said, having the master architect to look at the process, 
because the technology is going to change over time. You know, 
we talked about the national map. Going back to that, when we 
talk about, say, homeland security, let me give--you know, we 
talk about our biggest cities, and I would dare say our larger 
cities are better mapped. They've been at it longer. That's 
where the greatest need is. But what happens with our space 
shuttle disaster that spread debris all over the western part 
of the United States in a lot of remote areas, as well as 
urbanized areas? What would have happened? Can you just 
envision for one moment, all of a sudden a need was created for 
information. What if there had been a Federal program in place, 
a master architect, a block grant, however you want to say it, 
that over a period of time stood up and created the definition 
of standards to ensure data operability? That doesn't mean that 
city X doesn't put blue water lines on a map and city Y puts 
brown. It doesn't matter. If I can get to water line, I want to 
come up, I want to see them in green. They will come up that 
way. That is the kind of data inoperability. But had we had 
those standards, just imagine. The Federal Government couldn't 
stop and all of a sudden go to the BLM map or the USGS map, 
which is going to be tile by tile. This one is 23 years old. 
The next one to it is 26 years old. Imagine if we had State and 
local government that the closing on a house was yesterday, and 
you knew to call the new owner today and not last week's owner, 
moment by moment in time? What the Federal Government needs is 
to have access to that data. They don't need to build these 
football size warehouses. They need an interagency operating 
agreement that when the Federal Government needs it, and 
whether it be NIMA or other in a lead role that jumped in to 
support NASA, they should have access online to bring up all of 
that data to mobilize whether it was National Guard, FEMA or 
wherever, even local citizens, even to put out information, not 
just CNN or Fox News. I think that is the kind of thing that 
we're talking about, because the Federal Government can't 
change all the transactual analysis that is going on in our 
State and local communities. It is happening day in and day 
out. Let them do that, but let the Federal Government have 
access to it when they need it, and let them have access to it 
to work ``what if'' exercises.
    Mr. Putnam. If the shuttle disaster had not occurred until 
after the agencies had successfully implemented the steps they 
laid out in the first panel, they had this online card catalog 
through the portal, they had an enterprise architecture, they 
had interoperability, what would have been different about that 
operation?
    Mr. Ritchie. I can't speak for the data that would have 
been in there, but what data would have been available, they'd 
have had a one-stop shop to go look at and then determine if it 
met their needs, and perhaps in places it did and other places 
it didn't, but then they could immediately assess the situation 
as to where are we adequate, where are we inadequate.
    Mr. Dangermond. I have an answer to that, Mr. Chairman.
    My staff actually did support, for 6 weeks, all of the 
mapping and data, assembly and management for that project. 
They spent weeks of time calling local government agencies for 
their data. It was all done through a kind of a friends' 
network. ``Oh, you know, Joe has this.'' And, finally, they 
were able to assemble into a data base all the datasets that 
were necessary to do the analysis, which were quite profound. 
If they had it before, they could sit, find what was available, 
assuming that all the local governments are participating with 
their metadata published in the card catalog, and then download 
the data in minutes to hours. In reality it took many weeks of 
time calling on relationships to be able to accomplish.
    So, again, I think geospatial one-stop is enormously--just 
enormously valuable.
    Going back to your other question, if I may, we do need a 
cross-cutting national organization which would bring the 
different stove pipes together. People have advocated creating 
a new organization for this. This scares me. I wouldn't 
recommend it. But there should be a GIO someplace in the 
Federal Government, like a CIO, somebody that really is in 
charge of managing and protecting our $20 or $30 billion of 
government geographic information assets, the Chief or the 
Chief Geographic Information Officer. I like that notion a lot.
    Mr. Putnam. But you don't have any suggestions on where 
that should be?
    Mr. Dangermond. My second thought is probably just because 
of the bulk of ownership of geospatial data, it belongs in 
Department of Interior, and oddly enough, that is where it has 
evolved. The USGS, the manager of the national map is certainly 
one of the participants there, and they have lots of experience 
in it. They were certainly one of the first ones to use GIS at 
the national level in the government. So I feel no discomfort 
with leaving it exactly within the management structure, but 
getting executive management involved at the policy level and 
giving it some teeth and set it on some tighter timeframes, 
which again is beginning as both Mark and Scott mentioned 
earlier.
    Mr. Putnam. So, I mean, I'll grant that the Interior has 
the technical expertise and history, but if you're the 
Secretary of HUD or the Secretary of Agriculture, why do you 
care what the Secretary of Interior is telling you to do?
    Mr. Dangermond. I don't know. You could do it like in 
computing. In computing, they always pull computing out of each 
of the departments, and they have a CIO and an IT department. 
There are some dangers with that, because it sort of sets up a 
``single czar that is in charge'' culture. GIS is becoming 
pervasive like word processing. There isn't any longer a word 
processing department. It's pervasive, and I think geospatial 
data will be pervasive. There will be nodes that publish data 
all over the nervous system of the country, and we just need to 
give it--my view as a manager is the ``light touch.'' The light 
touch would be to help coordinate standards, particularly data 
content standards. The technology will take care of itself and 
is, but the data content standards, like how a soil map relates 
to something else, a geologic map, this kind of integration at 
the science level is really where we need help. We're at risk 
here.
    I am a very strong believer in something called the 
national map. This is actually a program that is in search of 
funding right now. It is the base map for the Nation, the wall 
to wall, end to end digital framework on which all the other 
layers of data gets organized. And, yes, you can have data at 
many other scales like the notion of books in a library. All of 
that is valuable. But in addition for science purposes and for 
national kinds of problem solving purposes, a complement to all 
of that must be a national framework that guides the Nation.
    Mr. Putnam. There's a reference in the GAO report to the 
global map that the shuttle had undertaken to map. What's the 
status of that?
    Mr. Dangermond. The mission was carried out several years 
ago. It was done through the sponsorship of NIMA and is being 
processed rather slowly, by my view, by various contractors.
    Mr. Putnam. And who decided the resolution of the scale for 
that? What standard was that?
    Mr. Dangermond. In part the technology did. So it's a 
sensing device that measures. There are policies associated 
with how much of the resolution scale will be released for the 
public as opposed to NIMA, which basically holds that data. But 
it is gradually coming out. My own perhaps radical belief is 
that it should all be published as soon as possible because it 
will provide a base map for global science.
    Mr. Putnam. Mr. Trobia, final thoughts?
    Mr. Trobia. Thank you, Mr. Chairman. Just coming back to 
your question about where should the leadership for this be. 
NSGIC has been involved with FGDC and the FGDC steering 
committee for years. If it wasn't for Secretary Babbitt driving 
the FGDC at Interior, I don't know that the FGDC would have 
happened. But there were issues of non-DOI departments and why 
should they comply? I would say that it wasn't until OMB got 
involved that FGDC got more of a cross-cutting nature. I have 
been a director for a non-GIS department and GIS departments. 
And I would say as a director for a non-GIS department I got 
kudos for protecting my department, for making it stronger, and 
for getting resources. As a GIS manager I have to go after 
multiple departments because the data, the most expensive part 
of making a GIS work, is in different departments. So 
organizationally, I'm the odd guy out. I have to go across the 
barriers of different departments.
    And that's the nature of what I believe Mr. Dangermond is 
talking about with creating the enterprise. The cost savings of 
connecting the stovepipes are incredible. I don't see how 
that's going to happen if, at the OMB level, there isn't a GIO, 
or somebody that can really get the department's attention. 
This is especially true regarding budget and performance 
measures for departments and to say, ``you all need to play in 
the same sandbox.''
    Mr. Dangermond. You would argue that it would come out of 
DOI and be a special organization.
    Mr. Trobia. Actually I would say that the leadership should 
because I do agree that in Interior, NOAA, and a number of the 
agencies, GIS is pervasive and there's business cases in all 
the departments. But what we're talking about here is creating 
the enterprise and getting the players to work together and 
connecting the stovepipes. And if that doesn't happen at OMB or 
with legislative support, I don't see how it's going to happen.
    Mr. Dangermond. I would agree with him.
    Mr. Ritchie. I would agree also. You have the Office of 
Federal Procurement Policy within OMB which could be a good 
place to start to look at a model for how to create this 
champion that has some authority in lines above all the 
stovepipes to sort of set the ground rules for operating in a 
sandbox.
    Ms. Kalweit. Mr. Chairman, just a couple of observations 
that are relevant to this discussion. First of all, I want to 
call your attention to a comment that Mark Foreman made 
regarding the Federal Enterprise Architecture. He was talking 
about how we in the Federal Government are going to be using 
that for our framework, if you will, for our business cases. 
And, among the priorities in terms of what is to be mapped into 
the Federal Enterprise Architecture is the geospatial 
component. OMB has made that among the priorities. And so we 
will start to look at or we will start to be able to frame what 
that overarching architecture looks like as the piece of the 
FEA starts to come to fruition.
    In addition, I would like to make an observation as a 
program manager in the Federal Government that moneys are 
appropriated by programs and agencies, and this makes it very 
difficult to coordinate programmatically on cross-cutting 
issues. And so as much as individually program managers may 
shake hands and say we want to partner, buy once, use many, 
again the programmatic appropriations sometimes can make that 
challenging.
    Mr. Putnam. Congress shares some of the blame. I would 
agree with that. I want to thank all of you for your testimony, 
and I want to thank the audience for their patience in staying 
with us. I don't think we ever carried an audience quite this 
long before, so it certainly demonstrates the interest in this 
issue which, as I said earlier, is revolutionary in its 
potential to transform the way the Federal Government provides 
information to other governments and interacts with its 
citizens. So your insight has been very helpful, and we look 
forward to additional hearings and comments on this.
    In the event that there may be additional questions for 
panelists or statements that we do not have time for today, the 
record shall remain open for 2 weeks for such submissions. And 
without objection we will include additional testimony that was 
submitted for the record in the appropriate place. Thank you 
all very much, and we stand adjourned.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]

                                  <all>
</pre></body></html>
